App. 1
RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0159p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

-----------------------------------------------------------------------

LUCILLE S. TAYLOR, an individual,
Plaintiff-Appellant,
v.
ROBERT J. BUCHANAN, in his official
capacity as President of the State
Bar of Michigan Board of
Commissioners; DANA M. WARNEZ,
in her official capacity as PresidentElect of the State Bar of Michigan
Board of Commissioners; JAMES
W. HEATH, in his official capacity as
Vice President of the State Bar of
Michigan Board of Commissioners;
DANIEL DIETRICH QUICK, in his
official capacity as Secretary of
the State Bar of Michigan Board
of Commissioners; JOSEPH P.
MCGILL, in his official capacity
as Treasurer of the State Bar of
Michigan Board of Commissioners,

No. 20-2002

Defendants-Appellees.
Appeal from the United States District Court
for the Western District of Michigan at Grand Rapids.
No. 1:19-cv-00670—Robert J. Jonker, District Judge.

App. 2
Decided and Filed: July 15, 2021
Before: SILER, MOORE, and THAPAR, Circuit Judges.
-----------------------------------------------------------------------

COUNSEL
ON BRIEF: Derk A. Wilcox, MACKINAC CENTER
LEGAL FOUNDATION, Midland, Michigan, for Appellant. Andrea J. Bernard, Charles R. Quigg, WARNER
NORCROSS + JUDD LLP, Grand Rapids, Michigan,
John J. Bursch, BURSCH LAW PLLC, Caledonia,
Michigan, for Appellees. Kerry Lee Morgan, PENTIUK, COUVREUR & KOBILJAK, P.C., Wyandotte,
Michigan, for Amicus Curiae.
Before: SILER, MOORE, and THAPAR, Circuit Judges.
MOORE, J., delivered the opinion of the court in
which SILER and THAPAR, JJ., joined. THAPAR, J.
(pp. 6–7), delivered a separate concurring opinion.
-----------------------------------------------------------------------

OPINION
-----------------------------------------------------------------------

KAREN NELSON MOORE, Circuit Judge. Attorneys in Michigan, like those in most other states, must
join an integrated bar association in order to practice
law. In this suit, Lucille S. Taylor, a Michigan attorney,
argues that requiring her to join the State Bar of Michigan violates her freedom of association, and further
that the State Bar of Michigan’s use of a portion of
her mandatory membership dues for certain advocacy

App. 3
activities violates her freedom of speech. The district
court rejected Taylor’s First Amendment claims, holding that they are foreclosed by two Supreme Court
decisions that have not since been overruled. We AFFIRM.
The first of the two cases relied upon by the district court is Lathrop v. Donohue, 367 U.S. 820 (1961).
There, the Court held that compulsory membership in
the Wisconsin Bar as a condition of practicing law
(along with its compulsory membership fees) did not
violate freedom-of-association principles. Id. at 843
(plurality op.); id. at 849 (Harlan, J., concurring in the
judgment). The second case is Keller v. State Bar of California, where the Court considered a First Amendment challenge to the State Bar of California’s use of
“membership dues to finance certain ideological or political activities” with which the plaintiffs disagreed.
496 U.S. 1, 4 (1990). Reaffirming that a state may require attorneys to join an integrated bar association in
order to practice law, the unanimous Court held that
the bar association could use membership dues to fund
activities “germane” to the regulation of the legal profession and the improvement of legal services without
violating freedom-of-speech principles. Id. at 13–14. To
do so, the Court relied heavily upon its earlier reasoning in Abood v. Detroit Board of Education, where the
Court upheld a state law allowing local government
employers and unions to enter into “agency shop”
agreements, “whereby every employee represented by
a union even though not a union member must pay to
the union, as a condition of employment, a service fee

App. 4
equal in amount to union dues,” 431 U.S. 209, 211
(1977), with the funds used to finance union activities
related to the union’s collective-bargaining purpose.
See Keller, 496 U.S. at 9–11, 13–14, 16–17.
To Taylor’s credit, she acknowledges that Lathrop
and Keller are an insurmountable hurdle if they remain good law. Taylor concedes that her compulsory
membership in the State Bar of Michigan does not offend the First Amendment under either case. See, e.g.,
Appellant Br. at 3 (“Lathrop . . . found that such integrated bar membership requirements did not violate
free association rights.”). And while the State Bar of
Michigan does engage in advocacy germane to the legal profession, Taylor concedes that its activities do not
cross the line set in Keller. Id. at 7 (“Lucille Taylor does
not challenge that, at all times relevant to this lawsuit, the Bar has constrained itself to public advocacy
that was previously held allowable under Keller.” (internal citation omitted)); see also R. 16 (Joint Statement of Material Facts at 9) (Page ID #92) (“Plaintiff
is not alleging that the State Bar of Michigan has exceeded Keller’s parameters.”). Instead, Taylor argues
that Lathrop and Keller no longer bind this court because of intervening precedent in the form of Janus v.
American Federation of State, County, and Municipal
Employees, Council 31, 138 S. Ct. 2448 (2018), where
the Court overruled Abood and held that First Amendment challenges to similar union laws are to be analyzed under at least the heightened “exacting scrutiny”
standard that the Court had favored over Abood in
Harris v. Quinn, 573 U.S. 616, 647–48 (2014). See

App. 5
Janus, 138 S. Ct. at 2460, 2465. According to Taylor,
because Janus overruled Abood, and Abood was the
foundation upon which the Court built Keller, we need
not follow Keller (and, by association, Lathrop) here
and are free to consider anew her constitutional claims.
We disagree.
Our cases are clear that we may not disregard Supreme Court precedent unless and until it has been
overruled by the Court itself. Thompson v. Marietta
Educ. Ass’n, 972 F.3d 809, 813 (6th Cir. 2020), cert. denied, No. 20-1019, 2021 WL 2301972 (U.S. 2021). Even
where intervening Supreme Court decisions have undermined the reasoning of an earlier decision, we must
continue to follow the earlier case if it “directly controls” until the Court has overruled it. Id. at 812, 814;
Grutter v. Bollinger, 288 F.3d 732, 743–44 (6th Cir.
2002) (en banc) (“If a precedent of [the] Court has direct application in a case, yet appears to rest on reasons rejected in some other line of decisions, the Court
of Appeals should follow the case which directly controls, leaving to [the Supreme] Court the prerogative
of overruling its own decisions.” (alterations original
but first alteration omitted) (quoting Agostini v. Felton,
521 U.S. 203, 237 (1997)), aff ’d, 539 U.S. 306 (2003). In
other words, it is for the Supreme Court to tell the
courts of appeals when the Court has overruled one of
its decisions, not for the courts of appeals to tell the
Court when it has done so implicitly. See Hohn v.
United States, 524 U.S. 236, 252–53 (1998) (“Our decisions remain binding precedent until we see fit to

App. 6
reconsider them, regardless of whether subsequent
cases have raised doubts about their continuing vitality.”).
Here, the district court correctly concluded that
Lathrop and Keller continue to bind the lower courts
despite the Court’s ruling in Janus. To begin, the majority opinion in Janus made no mention of Keller (or
Lathrop) in overruling Abood. Indeed, in Harris, the
Janus precursor mentioned above, the Court expressly
rejected the notion that its ruling impacted the continued validity of Keller, which “fit[ ] comfortably within
the framework applied in [Harris].” Harris, 573 U.S. at
655–56. Even the two justices who have signaled their
willingness to reconsider Keller in light of Janus have
acknowledged that Keller remains binding upon the
lower courts until the Supreme Court says otherwise.
Jarchow v. State Bar of Wis., 140 S. Ct. 1720, 1721
(2020) (“[A]ny challenge to our precedents will be dismissed for failure to state a claim, before discovery can
take place. . . . Short of a constitutional amendment,
only we can rectify our own erroneous constitutional
decisions.”) (Thomas, J., joined by Gorsuch, J., dissenting from the denial of cert.). Consistent with the numerous courts faced with claims like Taylor’s in the
wake of Janus, we hold that Lathrop and Keller remain
good law. See, e.g., Jarchow v. State Bar of Wis., No. 193444, 2019 WL 8953257, at *1 (7th Cir. 2019), cert. denied, 140 S. Ct. 1720 (2020); Fleck v. Wetch, 937 F.3d
1112, 1115 (8th Cir. 2019), cert. denied, 140 S. Ct. 1294
(2020), reh’g denied, 140 S. Ct. 2756 (2020); Crowe v.
Or. State Bar, 989 F.3d 714, 725 (9th Cir. 2021) (“But

App. 7
Keller plainly has not been overruled.”), petition for
cert. filed (May 27, 2021); Schell v. Chief Just. & Justs.
of Okla. Sup. Ct., 2 F.4th 1312, 1324–25 (10th Cir.
2021); McDonald v. Longley, 4 F.4th 229, 243 n.14 (5th
Cir. July 2, 2021); see also Thompson, 972 F.3d at 813–
14 (upholding a district court decision based upon Minnesota State Board for Community Colleges v. Knight,
465 U.S. 271 (1984), despite recognizing that “Knight’s
reasoning conflicts with the reasoning in Janus”).1
Because, as Taylor concedes, Lathrop and Keller
doom her First Amendment claims, we AFFIRM the
judgment of the district court.

1

In Schell and McDonald, the Tenth and Fifth Circuits respectively allowed First Amendment claims regarding the Oklahoma Bar Association and State Bar of Texas to proceed but only
to the extent that the plaintiffs in those cases alleged that those
integrated bar associations engaged in activities that were not
“germane” to the practice of law. See Schell, 2021 WL 2657106, at
*1; McDonald, 2021 WL 2767443, at *9–14; see also Boudreaux v.
La. State Bar Ass’n, ___ F.4th ___, 2021 WL 2767318, at *4–5 (5th
Cir. July 2, 2021); Crowe, 989 F.3d at 729 (holding that Lathrop
does not preclude a free-association claim challenging compelled
membership in a bar association that “engages in nongermane political activities”). We do not deal with the same circumstances
here given Taylor’s concession that the State Bar of Michigan’s
activities are consistent with Lathrop and Keller.

App. 8
-----------------------------------------------------------------------

CONCURRENCE
-----------------------------------------------------------------------

THAPAR, Circuit Judge, concurring. Because Supreme Court precedent forecloses the plaintiff ’s compelled association claim, and because the plaintiff
failed to bring the one claim that remains viable, I concur.
Michigan has an integrated bar. That means that
the plaintiff must provide financial support to the
Michigan Bar Association, which engages in lobbying
and other such work. As the majority notes, the plaintiff ’s claim that forcing her to be part of an integrated
bar violates her associational rights cannot succeed.
The reason lies not in the First Amendment, but in Supreme Court precedent.
First, the Supreme Court held that mandatory bar
membership, like union-shop agreements, was compelled association allowed by the First Amendment.
Lathrop v. Donohue, 367 U.S. 820, 842–43 (1961). Then,
the Court held that public employees could be required
to pay union dues. Abood v. Detroit Bd. of Educ., 431
U.S. 209, 235–36 (1977). And in Keller v. State Bar of
California, the Court again upheld mandatory bar
membership and again analogized “the relationship of
the State Bar and its members” to “the relationship of
employee unions and their members.” 496 U.S. 1, 12
(1990). So relying on its precedent in Abood, the Keller
Court reasoned that just as a state could require public

App. 9
employees to pay union dues, so too could a state require lawyers to pay state bar dues. Id. at 13–14. As
far as the Court was concerned, state bars and publicsector unions seemed to go hand-in-hand.
But then in Janus, the Supreme Court overruled
Abood, and said that “[c]ompelling individuals to
mouth support for views they find objectionable” violates the First Amendment. Janus v. Am. Fed’n of State,
Cnty. & Mun. Emps., Council 31, 138 S. Ct. 2448, 2463
(2018). And the Court repeated Thomas Jefferson’s
warning that compelling an individual “to furnish contributions of money for the propagation of opinions
which he disbelieves and abhors is sinful and tyrannical.” Id. at 2464 (cleaned up). So after Janus, one might
believe that this is an easy case. But it is not. Why?
Because Janus did not overrule Keller’s bar mandate.
See Jarchow v. State Bar of Wis., 140 S. Ct. 1720, 1720
(2020) (Thomas, J., dissenting from denial of certiorari)
(noting that Janus “casts significant doubt” on Keller).
But see Harris v. Quinn, 573 U.S. 616, 655–56 (2014)
(refusing to extend Abood but maintaining Keller’s vitality). And only the Supreme Court can overrule its
previous decisions. Until it does, we must follow Keller.
But even after Keller, some claims can still be
brought against integrated bars. If an integrated bar
association engages in political or ideological activity
that does not relate to regulating the legal profession,
a plaintiff can bring a freedom of speech and/or association claim. The speech claim would prevail if an
integrated bar association used mandatory membership fees to fund non-germane political or ideological

App. 10
activity without providing adequate opt-out procedures. See Chicago Tchrs. Union v. Hudson, 475 U.S.
292, 306–07 (1986) (identifying opt-out procedures).
The association claim could go forward even if the bar
association allowed lawyers to opt out of funding ideological activity. See Keller, 496 U.S. at 17; see also
McDonald v. Longley, No. 20-50448, 2021 WL 2767443
at *9 (5th Cir. July 2, 2021). The plaintiff here, however,
concedes that the Michigan State Bar’s ideological activities “do not cross the [germaneness] line set in Keller.” Maj. Op. at 3. So neither claim remains.
Because the plaintiff did not bring a viable challenge, I concur.

App. 11
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 20-2002
LUCILLE S. TAYLOR, an individual,
Plaintiff - Appellant,
v.
ROBERT J. BUCHANAN, in his official capacity as President of the State Bar of Michigan
Board of Commissioners; DANA M. WARNEZ,
in her official capacity as President-Elect of
the State Bar of Michigan Board of Commissioners; JAMES W. HEATH, in his official capacity as Vice President of the State Bar of
Michigan Board of Commissioners; DANIEL
DIETRICH QUICK, in his official capacity as
Secretary of the State Bar of Michigan Board
of Commissioners; JOSEPH P. MCGILL, in
his official capacity as Treasurer of the State
Bar of Michigan Board of Commissioners,
Defendants - Appellees.
Before: SILER, MOORE,
and THAPAR, Circuit Judges.
JUDGMENT
(Filed Jul. 15, 2021)
On Appeal from the United States District Court
for the Western District of Michigan at Grand Rapids.

App. 12
THIS CAUSE was heard on the record from the
district court and was submitted on the briefs without
oral argument.
IN CONSIDERATION THEREOF, it is ORDERED
that the judgment of the district court is AFFIRMED.
ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 13
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUCILLE S. TAYLOR,
Plaintiff,
v.

CASE NO. 1:19-CV-670

DENNIS M. BARNES,
et al.,
Defendants.

HON. ROBERT J. JONKER
/

ORDER
(Filed Sep. 8, 2020)
This is an action asserting First Amendment challenges to the structure of the Michigan State Bar.
Plaintiff is a member of the Michigan Bar who asserts
that the mandatory dues assessment violates her free
speech rights, and that required membership as a condition to practice law violates her free association
rights in light of the Supreme Court’s decision in Janus
v. American Federation, 138 S. Ct. 2448 (2018). Defendant officers of the Michigan Bar disagree and assert
that nothing in Janus abrogates earlier Supreme Court
decisions expressly validating a compulsory (or integrated) model for organization of a State Bar.
The parties have agreed on a Statement of Facts,
ECF No. 16, and have each filed a Motion for Summary
Judgment. ECF Nos. 17, 19. The parties have done an
excellent job on their submissions, and it would be

App. 14
most interesting to wade into the issues with the parties. But the Court is satisfied that whatever wading
needs to be done must happen in a higher Court because the Supreme Court has squarely decided the issues framed here in favor of the defendants. In Lathrop
v. Donohue, 367 U.S. 820 (1961), the Supreme Court rejected a free association claim by a member of the Wisconsin Bar on materially indistinguishable facts. In
Keller v. State Bar of California, 496 U.S. 1 (1990), the
Supreme Court rejected a free speech claim by a member of the California Bar on materially indistinguishable facts.
Plaintiff accepts that Lathrop and Keller rejected
the claims she is making here, but urges this Court
to revisit them in light of a line of Supreme Court
authority culminating in Janus that, according to
Plaintiff, calls into question the continuing validity
of the holdings. This Court has no power to do that.
Ramos v. Louisiana, 140 S. Ct. 1390, 1416 n.5 (2020)
(Justice Kavanaugh, concurring in part); Hohn v.
United States, 524 U.S. 236, 252-53 (1998). See also
Thompson v. Marietta Education Association, ___ F.3d
___, 2020 WL 5015460 (6th Cir. Aug. 25, 2020) (refusing
to extend Janus in a case “controlled by a fair reading
of the Supreme Court’s precedents” because “lower
courts must follow Supreme Court precedent”). Even
Justices who may believe Lathrop and Keller were
wrongly decided recognize that the Supreme Court will
have to make that call. See, e.g., Jarchow v. State Bar
of Wisconsin, 140 S. Ct. 1720 (June 1, 2020) (mem.)

App. 15
(Justices Thomas and Gorsuch dissenting from denial
of certiorari in an integrated bar case).
Accordingly, following and applying Lathrop and
Keller, as this Court is bound to do, the Court
GRANTS the Defendants’ Motion for Summary
Judgment, and DENIES the Plaintiff ’s Motion for
Summary Judgment. Judgment will enter in favor
of Defendants and against Plaintiff.
IT IS SO ORDERED.
Date: September 8, 2020

/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES
DISTRICT JUDGE

App. 16
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUCILLE S. TAYLOR,
Plaintiff,
v.

CASE NO. 1:19-CV-670

DENNIS M. BARNES,
et al.,
Defendants.

HON. ROBERT J. JONKER
/

JUDGMENT
(Filed Sep. 8, 2020)
In accordance with the Order entered this date,
JUDGMENT is entered in favor of Defendants Dennis
M. Barnes, Robert J. Buchanan, James W. Heath, Daniel D. Quick, Dana M. Warnez and against Plaintiff Lucille S. Taylor.
Date: September 8, 2020

/s/ Robert J. Jonker
ROBERT J. JONKER
CHIEF UNITED STATES
DISTRICT JUDGE

App. 17
Amendment I. Establishment of Religion; Free Exercise
of Religion; Freedom of Speech and the Press;
Peaceful Assembly; Petition for Redress of Grievances
Congress shall make no law respecting an establishment of religion, or prohibiting the free exercise
thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble,
and to petition the Government for a redress of grievances.

AMENDMENT XIV. CITIZENSHIP; PRIVILEGES
AND IMMUNITIES; DUE PROCESS;
EQUAL PROTECTION; APPOINTMENT OF
REPRESENTATION; DISQUALIFICATION OF
OFFICERS; PUBLIC DEBT; ENFORCEMENT
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Section 2. Representatives shall be apportioned
among the several States according to their respective
numbers, counting the whole number of persons in
each State, excluding Indians not taxed. But when the
right to vote at any election for the choice of electors

App. 18
for President and Vice President of the United States,
Representatives in Congress, the Executive and Judicial officers of a State, or the members of the Legislature thereof, is denied to any of the male inhabitants
of such State, being twenty-one years of age, and citizens of the United States, or in any way abridged, except for participation in rebellion, or other crime, the
basis of representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such State.
Section 3. No person shall be a Senator or Representative in Congress, or elector of President and Vice
President, or hold any office, civil or military, under the
United States, or under any State, who, having previously taken an oath, as a member of Congress, or as an
officer of the United States, or as a member of any
State legislature, or as an executive or judicial officer
of any State, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion
against the same, or given aid or comfort to the enemies thereof. But Congress may by a vote of two-thirds
of each House, remove such disability.
Section 4. The validity of the public debt of the United
States, authorized by law, including debts incurred for
payment of pensions and bounties for services in suppressing insurrection or rebellion, shall not be questioned. But neither the United States nor any State
shall assume or pay any debt or obligation incurred in
aid of insurrection or rebellion against the United
States, or any claim for the loss or emancipation of any

App. 19
slave; but all such debts, obligations and claims shall
be held illegal and void.
Section 5. The Congress shall have power to enforce,
by appropriate legislation, the provisions of this article.

App. 20
REVISED JUDICATURE ACT OF 1961 (EXCERPT)
Act 236 of 1961
600.901 State bar; membership; public body
corporate.
Sec. 901. The state bar of Michigan is a public body
corporate, the membership of which consists of all persons who are now and hereafter licensed to practice
law in this state. The members of the state bar of Michigan are officers of the courts of this state, and have the
exclusive right to designate themselves as “attorneys
and counselors,” or “attorneys at law,” or “lawyers.” No
person is authorized to practice law in this state unless
he complies with the requirements of the supreme
court with regard thereto.

App. 21
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
LUCILLE S. TAYLOR,

Case No.
1:19-cv-00670

Plaintiff,

Hon. Robert J. Jonker

v.
DENNIS M. BARNES, in his
official capacity as President
of the State Bar of Michigan
Board of Commissioners;
ROBERT J. BUCHANAN,
in his official capacity as
President-Elect of the State
Bar of Michigan Board of
Commissioners; DANA M.
WARNEZ, in her official
capacity as Vice President
of the State Bar of Michigan
Board of Commissioners;
JAMES W. HEATH, in his
official capacity as Secretary
of the State Bar of Michigan
Board of Commissioners; and
DANIEL D. QUICK, in his
official capacity as Treasurer
of the State Bar of Michigan
Board of Commissioners,
Defendants.

JOINT
STATEMENT OF
MATERIAL FACTS
(Filed May 15, 2020)

/

Plaintiff and Defendants hereby submit the following joint statement of undisputed material facts in

App. 22
support of their respective motions for summary judgment:
Background
1. The Michigan Legislature integrated the
Michigan bar and created the State Bar of Michigan in
1935.
2. The State Bar of Michigan is a public body corporate under the control of the Michigan Supreme
Court. MCL 600.901.
3. The State of Michigan requires attorneys to
become and stay members of the State Bar of Michigan
as a condition precedent to being licensed to practice
law in Michigan. MCL 600.901.
4. Becoming and staying a member of the State
Bar of Michigan requires that lawyers, including
Plaintiff, pay dues to the State Bar of Michigan. See
MCL 600.904.
5. The State Bar of Michigan has over 46,000
members in good standing.
6. Plaintiff is a member of the State Bar of Michigan, and her dues have been paid through 2020.
7. Plaintiff has paid her dues since becoming a
licensed attorney in Michigan and is not in arrears.
8. The named Defendants are officers of the
State Bar of Michigan acting solely in their official capacities and acting under color of state law to enforce

App. 23
laws requiring membership in and paying dues to the
State Bar of Michigan.
9. This action is brought under 42 U.S.C. §§ 1983
and 1988.
10. Venue is appropriate in the Western District
of Michigan under 28 U.S.C. § 1931.
The State Bar of Michigan’s Governance
11. The Michigan Supreme Court has the power
to provide for the organization, government, and membership of the State Bar of Michigan, and to adopt
rules and regulations concerning the conduct and activities of the State Bar of Michigan and its members;
the schedule of membership dues therein; the discipline, suspension, and disbarment of its members for
misconduct; and the investigation and examination of
applicants for admission to the bar. MCL 600.904.
12. The Michigan Supreme Court has exercised
its authority over the State Bar of Michigan by promulgating the Rules Concerning the State Bar of Michigan (the “RCSBM”) as well as various administrative
orders, including Michigan Supreme Court Administrative Order No. 2004-01. A copy of the current
RCSBM is attached hereto as Exhibit A. At all times
relevant to this lawsuit, the State Bar of Michigan has
operated in accordance with the RCSBM and the administrative orders promulgated by the Supreme
Court.

App. 24
13. The Representative Assembly is the final policy-making body of the State Bar of Michigan. (See
RCSBM Rule 5, Section 1.)
14. The elected representatives of the Representative Assembly are elected by member lawyers in
each judicial circuit. The judicial circuits are the election districts. Each judicial circuit is entitled to one
representative. The remaining seats are to be apportioned among the circuits on the basis of lawyer population. (See RCSBM Rule 6 Section 3.)
15. The Representative Assembly is comprised of
142 elected representatives and 8 commissioner representatives who are the members of the executive committee of the Board of Commissioners. The Board of
Commissioners, in turn, is comprised of 20 elected
members, and 5 members appointed by the Supreme
Court. At no time will more than 5 members of the 150
representatives to the Representative Assembly (3.333%
of the total) be appointed by the Supreme Court. (See
RCSBM Rule 6, Section 2, and Rule 5, Section 2.)
16. No person holding judicial office may be
elected or appointed an officer of the Representative
Assembly. No person holding judicial office may be
elected or appointed an officer of the Board of Commissioners. (See RCSBM Rule 7 Sections 1 and 2.)
17. The Board of Commissioners elects its officers from among its member commissioners. (See
RCSBM Rule 7, Section 1.)

App. 25
18. Three percent or more of the active members
of the State Bar of Michigan may, by written petition,
require consideration by the Representative Assembly
of any question of public policy germane to the function
and purposes of the State Bar. (See RCSBM Rule 13.)
19. Twenty-five or more active members of the
State Bar of Michigan may file a written petition with
the secretary at the principal office of the State Bar no
later than 90 days before the annual meeting of the
State Bar, to require the convening of a congress of the
active members of the State Bar in conjunction with
the annual meeting to consider the subject matter
raised in the petition. One hundred active members
constitute a quorum. (See RCSBM Rule 14, Section 1.)
20. Each year the Board of Commissioners shall
cause to be presented an audited financial statement
of the receipts and expenditures of the State Bar of
Michigan for the fiscal year. Such a statement shall
also be filed with the Clerk of the Supreme Court and
shall be published in the January issue of the official
publication of the State Bar of Michigan. (See RCSBM
Rule 9.)
21. The Board of Commissioners of the State Bar
of Michigan adopts the budget for the State Bar. (See
RCSBM Rule 5, Section 1(a)(3).)
The State Bar of Michigan’s Dues
22. Plaintiff ’s dues amounts, as well as all members’ dues amounts, are set by the Supreme Court of

App. 26
Michigan and are allocated into three separate amounts
for: (1) dues to fund the Attorney Grievance Commission and the Attorney Discipline Board, which for active
members in the 2019-20 fiscal year are set at $120.00;
(2) dues to fund the Client Protection Fund, which for
active members in the 2019-20 fiscal year are set at
$15.00; and (3) dues to fund the State Bar of Michigan’s
other operations, which for active members in the
2019-20 fiscal year are set at $180.00. (See RCSBM 4(A).)
23. All dues are paid into the State Bar of Michigan treasury and maintained in segregated accounts
to pay State Bar expenses authorized by the Board of
Commissioners and the expenses of the attorney discipline system within the budget approved by the Supreme Court, respectively. (See RCSBM Rule 4(G).)
24. The State Bar of Michigan’s mandatory dues
are not automatically collected from each member. Instead, members must affirmatively act to renew their
membership each year and remit payment via credit
card, check, or money order.
25. Not all State Bar of Michigan members are
required to pay the non-disciplinary portion of expenses. A person who has been a member of the State
Bar for at least 50 years shall not be assessed general
expenses, but shall pay the full amount assessed other
members for the client security fund and the discipline
agencies. (See RCSBM 4(D).)
26. The State Bar of Michigan also collects voluntary dues on behalf of its numerous subject-matterspecific sections. Plaintiff stipulates that those dues

App. 27
and the activities to which they are applied are not at
issue in this case.
27. The State Bar of Michigan uses the mandatory dues it collects from members to engage in a variety of activities including, without limitation, the
following:
a. Collects license fees and administers licensing requirements.
b. Investigates the character and fitness of
candidates for admission to the Michigan bar.
c. Maintains the official record of attorneys
licensed to practice in Michigan.
d. Operates and supports its governance
mechanisms, including the Board of Commissioners and the Representative Assembly.
e. Investigates and prosecutes the unauthorized practice of law.
f. Administers IOLTA financial institution
registrations.
g. Issues ethics opinions interpreting the
Michigan Rules of Professional Conduct and the
Michigan Code of Judicial Conduct.
h. Provides ethics counseling to lawyers and
judges through its Ethics Helpline.
i. Administers the Client Protection Fund to
reimburse clients whose attorneys misappropriate
funds.

App. 28
j. Administers the Lawyers and Judges Assistance Program, which assists attorneys and
judges with substance abuse, mental health, and
general wellness issues.
k. Analyzes and supports the development
of public policies concerning the courts, the administration of justice, the provision of legal services,
and the legal profession, including by reviewing,
taking positions on, and advocating for or against
proposed court rules and legislation affecting
these matters, all in accord with Michigan Supreme Court Administrative Order No. 2004-01
and Keller v. State Bar of California, 496 U.S. 1
(1990).
l. Coordinates pro bono, legal aid, and access
to justice initiatives.
m. Provides the Practice Management Resource Center, a broad-based information clearinghouse and resource center for Michigan lawyers
for services and goods necessary to successfully
manage a legal practice.
n. Manages the State Bar website and produces the Michigan Bar Journal, e-Journal, and
other publications intended to address the educational and ethical standards of the bar, toward the
end of seeking to improve the administration of
justice and the quality of legal services available
to Michigan’s citizens.

App. 29
The Client Protection Fund
28. The Client Protection Fund was established
by the State Bar of Michigan’s Board of Commissioners, as authorized by the Michigan Supreme Court, on
February 25, 1966, for the purpose of reimbursing
clients who have been victimized by attorneys who
violate the profession’s ethical standards by misappropriating funds entrusted to them.
29. Programs like the Client Protection Fund
exist in all 50 states and the District of Columbia. In
all but two states, these programs are funded with
mandatory bar dues or licensing fees.
30. The Client Protection Fund operates under
the Client Protection Fund Rules. A copy of the current
Client Protection Fund Rules is attached hereto as Exhibit B. At all times relevant to this lawsuit, the State
Bar of Michigan complied with the Client Protection
Fund Rules.
31. The Client Protection Fund Rules provide
that the purpose of the Client Protection Fund is “to
promote public confidence in the administration of justice and integrity of the legal profession by reimbursing losses caused by the dishonest conduct of lawyers
admitted and licensed to practice law in Michigan. Reimbursable losses must have occurred in the course of
the lawyer-client or other fiduciary relationship between the lawyer and claimant and must have a significant contact with Michigan.”

App. 30
32. The Client Protection Fund is not an insurance policy, and no person has a legal right to reimbursement from the Client Protection Fund.
33. The State Bar of Michigan uses the Client
Protection Fund to reimburse claimant losses that the
Board of Commissioners determines fall within the
definition of the reimbursable losses under the Client
Protection Fund Rules, subject to the reimbursement
limits set forth in the rules. The Client Protection Fund
does not reimburse claimants for losses that fall outside the definition of reimbursable losses under the
rules nor, when it does reimburse claimants, does it
always fully reimburse those claimants. The Client
Protection Fund sometimes awards partial reimbursements.
34. Between August 23, 2016, and August 22,
2019, the Client Protection Fund received 322 claims
requesting total reimbursement of $7,812,082.15.
35. As of November 25, 2019, the State Bar of
Michigan had resolved 205 of the 322 claims to the Client Protection Fund, including 28 claims that were
withdrawn by claimants and 177 claims that had received a determination by the Board of Commissioners.
36. The 177 claims requested reimbursement of
$5,073,175.26 in the aggregate. The Client Protection
Fund Committee determined that $910,035.75 of such
asserted loss could be substantiated and fell within the
scope of reimbursable loss under the Client Protection
Fund Rules. The Client Protection Fund Committee

App. 31
recommended and the Board of Commissioners approved payment of $810,035.75 to the claimants on
such claims.
37. One claim accounted for the $100,000 difference between the loss that could be substantiated and
fell within the scope of reimbursable loss under the
Client Protection Fund Rules and the amount recommended and approved to be paid described in the preceding paragraph. That claimant suffered $250,000 in
reimbursable loss but could receive a maximum reimbursement of $150,000 under the Client Protection
Fund Rules.
38. As of November 25, 2019, 117 of the 322
claims remained pending.
The State Bar of Michigan’s Advocacy
39. The State Bar of Michigan uses mandatory
dues to fund activities in accordance with Michigan
Supreme Court Administrative Order No. 2004-01.
That Order prohibits the use of State Bar dues to fund
ideological activities except in the following areas: (A)
the regulation and discipline of attorneys; (B) the improvement of the functioning of the courts; (C) the
availability of legal services to society; (D) the regulation of attorney trust accounts; and (E) the regulation
of the legal profession, including the education, the
ethics, the competency, and the integrity of the profession. A copy of Administrative Order No. 2004-01 is attached hereto as Exhibit C. At all times relevant to

App. 32
this lawsuit, the State Bar of Michigan complied with
Administrative Order No. 2004-01.
40. Plaintiff does not challenge that, at all times
relevant to this lawsuit, the State Bar of Michigan has
constrained itself to public policy advocacy that the
U.S. Supreme Court held allowable in Keller v. State
Bar of California, 496 U.S. 1 (1990). Plaintiff is not alleging that the State Bar of Michigan has exceeded
Keller’s parameters.
41. The advocacy of the State Bar of Michigan is
not promulgated or published with an indication that
it has come from the Michigan Supreme Court, the
state judiciary, the governor, the legislature, or any
State Bar of Michigan member or group of members. It
is always attributed to the State Bar of Michigan.
42. A summary of the positions taken by the
State Bar of Michigan on legislation proposed during
the 2017-18 and 2019-20 sessions of the Michigan Legislature through January 31,2020, is attached hereto
as Exhibit D and incorporated by reference herein.
43. The State Bar of Michigan reports that it
dedicates approximately 6% of its annual budget to
public policy development, analysis, and advocacy.
Challenges to Ideological Activities
44. Since the Supreme Court decided Keller v.
State Bar of California, 496 U.S. 1 (1990), no party has
filed a lawsuit challenging Michigan’s requirement

App. 33
that attorneys be a member of and pay dues to the
State Bar of Michigan.
45. Since the Michigan Supreme Court promulgated Administrative Order No. 2004-01 on February
3, 2004, the State Bar of Michigan has received one
challenge to the State Bar of Michigan’s expressive activities.
Plaintiff and the State Bar of Michigan’s Advocacy
46. Plaintiff has always been free to speak privately and publicly about any issue on which the State
Bar of Michigan has deliberated or taken a position.
47. The State Bar of Michigan is not in any way
Plaintiffs exclusive representative in the collectivebargaining sense. Again, Plaintiff is free to speak privately and publicly about any issue on which the State
Bar of Michigan has deliberated or taken a position.
48. Plaintiff is free to join and has joined other
bar associations and special-interest groups that take
positions contrary to those taken by the State Bar of
Michigan.
49. Plaintiff has never filed a comment with the
State Bar of Michigan in response to a public notice
nor objected at a public hearing of the Board of Commissioners or Representative Assembly regarding any
proposed State Bar of Michigan position on public policy issues.

App. 34
50. Plaintiff has never filed a challenge with the
State Bar of Michigan claiming that the State Bar took
or proposed to take a public policy position with which
she disagreed or otherwise impermissibly used mandatory dues under the First Amendment. Plaintiff has
never sought revocation of a State Bar position or reimbursement for her share of such activity’s cost.
51. Plaintiff has never withheld her dues payable to the State Bar of Michigan for any reason, including because she opposed a position for which the State
Bar advocated or proposed to advocate.
52. Plaintiff has never communicated to the
State Bar of Michigan that the State Bar’s expressive
activities did not reflect her best interests or the best
interests of Michigan’s citizens and attorneys.
53. In addition to challenging a State Bar of
Michigan position based on the procedures set forth in
Administrative Order No. 2004-01, if the State Bar
were to take a position to which Plaintiff objects, Plaintiff could say so and could actively lobby decision makers to reject the State Bar’s position.
54. If the State Bar of Michigan were to take a
position to which Plaintiff objects, Plaintiff could say
so and could seek reimbursement of her dues under
Administrative Order No. 2004-01.

App. 35
Michigan’s Interests in the Practice of Law
and the State Bar of Michigan
55. The administration of justice is a primary
government function. Attorneys are essential to that
function.
56. The State of Michigan has an interest in the
practice of law within the state and has broad power
to protect the public health, safety, and other valid interests by establishing standards for licensing attorneys and regulating the practice of law.
57. The State of Michigan has an interest in elevating the ethical and educational standards of the
bar, enhancing the quality of legal services, and improving relations between the legal profession and the
public.
58. The State of Michigan has an interest in protecting the public from unethical attorneys.
59. Because attorneys are in the business of
knowing, understanding, utilizing, and interpreting
the law and utilizing the court system, the State of
Michigan has an interest in receiving systematized
input from licensed attorneys on legislation concerning
the administration of justice, the functioning of the
court system, and the legal profession.
60. Licensed attorneys are subject to detailed
ethics rules. Under those rules, all licensed attorneys
should seek improvement of the law, the administration of justice and the quality of service rendered by
the legal profession. As a member of a learned

App. 36
profession, a lawyer should cultivate knowledge of the
law beyond its use for clients, employ that knowledge
in reform of the law, and work to strengthen legal education. A lawyer should be mindful of deficiencies in
the administration of justice and of the fact that the
poor, and sometimes persons who are not poor, cannot
afford adequate legal assistance, and should therefore
devote professional time and civic influence in their behalf. A lawyer should aid the legal profession in pursuing these objectives and should help the bar regulate
itself in the public interest. (MRPC 1.0, Preamble Comment.)
61. The State Bar of Michigan is currently a component of Michigan’s regulatory scheme for attorneys.
Under that scheme, members of the bar, rather than
the general public, bear the expense of ensuring that
attorneys adhere to ethical practices.
62. None of Michigan’s voluntary associations
and special-interest groups for attorneys and judges
includes all attorneys licensed to practice law in Michigan.
63. The following states do not have an integrated bar: Arkansas, California, Colorado, Connecticut, Delaware, Illinois, Indiana, Iowa, Kansas, Maine,
Maryland, Massachusetts, Minnesota, New Jersey,
New York, Ohio, Pennsylvania, Tennessee, and Vermont. These states still require licensed attorneys to
pay fees for purposes that may include funding attorney regulation, attorney discipline, the state’s client
protection fund, and other programs.

App. 37
64. The remaining states and the District of Columbia have integrated bars.
The Attorney Grievance Commission
and the Attorney Discipline Board
65. The Attorney Grievance Commission and the
Attorney Discipline Board are separate entities, which
are governed separately and are not funded out of the
State Bar of Michigan’s general funds. Rather, the
State Bar of Michigan collects and forwards a designated portion of the dues collected to those two entities
for their specific functions. All dues are collected and
paid into the State Bar treasury and are maintained
in segregated accounts to pay State Bar expenses authorized by the Board of Commissioners and the expenses of the attorney discipline system. Plaintiff is
not challenging fees related to these two attorneydiscipline entities. (See RCSBM 4(G).).
66. In addition to maintaining the official record
of attorneys licensed to practice in the State of Michigan, the State Bar of Michigan provides finance,
administration, and human resources department
support to the Attorney Grievance Commission and
the Attorney Discipline Board. The Attorney Grievance Commission and the Attorney Discipline Board
reimburse the State Bar for the cost of these services.
67. The Attorney Grievance Commission is the
prosecution arm of the Michigan Supreme Court for

App. 38
discharge of its constitutional responsibility to supervise and discipline Michigan attorneys and those temporarily admitted to practice or otherwise subject to
the disciplinary authority of the Supreme Court. The
Attorney Grievance Commission is governed by the
rules set forth in subchapter 9.100 of the Michigan
Court Rules.
68. Attorney Grievance Commission commissioners are appointed solely by the Supreme Court.
The Supreme Court chooses a chairperson and a vicechairperson. Other officers are chosen by the commissioners appointed by the Supreme Court. (See MCR
9.108(A),(B), and (C).)
69. The Attorney Discipline Board is the adjudicative arm of the Michigan Supreme Court for discharge of its constitutional responsibility to supervise
and discipline Michigan attorneys and those temporarily admitted to practice or otherwise subject to the disciplinary authority of the Supreme Court.
70. The Attorney Discipline Board is governed by
the rules set forth in subchapter 9.100 of the Michigan
Court Rules. The board consists of 6 attorneys and 3
laypersons appointed solely by the Supreme Court.
The Supreme Court shall designate from among the
members of the board a chairperson and a vice-chairperson. Other officers are chosen by the board from
among its Supreme Court-appointed members. (See
MCR 9.110(A) and (B).)

App. 39
Dated: May 15, 2020

Dated: May 15, 2020

/s/Derk A. Wilcox

/s/ Andrea J. Bernard
(signed with permission)

Derk A. Wilcox (P66177)
Patrick J. Wright (P54052)
MACKINAC CENTER
LEGAL FOUNDATION
140 West Main Street
Midland, Michigan 48640
(989) 631-0900
wilcox@mackinac.org
Attorneys for Plaintiff

Andrea J. Bernard (P49209)
Charles R. Quigg (P82624)
WARNER NORCROSS +
JUDD LLP
1500 Warner Building
150 Ottawa Avenue NW
Grand Rapids, Michigan
49503
(616) 752-2199
abernard@wnj.com
cquigg@wnj.com
Attorneys for Defendants
John J. Bursch (P57679)
BURSCH LAW PLLC
9339 Cherry Valley
Avenue SE, #78
Caledonia, Michigan 49316
(616) 450-4235
ibursch@burschlaw.com
Co-Counsel for
Defendants

App. 40
Exhibit A
Rules Concerning the State Bar of Michigan
RULES CONCERNING THE
STATE BAR OF MICHIGAN
Rule 1 State Bar of Michigan
The State Bar of Michigan is the association of the
members of the bar of this state, organized and existing as a public body corporate pursuant to powers of
the Supreme Court over the bar of the state. The State
Bar of Michigan shall, under these rules, aid in promoting improvements in the administration of justice
and advancements in jurisprudence, in improving relations between the legal profession and the public,
and in promoting the interests of the legal profession
in this state.
Rule 2 Membership
Those persons who are licensed to practice law in this
state shall constitute the membership of the State Bar
of Michigan, subject to the provisions of these rules.
Law students may become section members of the
State Bar Law Student Section. None other than a
member’s correct name shall be entered upon the official register of attorneys of this state. Each member,
upon admission to the State Bar and in the annual
dues notice, must provide the State Bar with the member’s correct name, physical address, and email address, that can be used, among other things, for the
annual dues notice and to effectuate electronic service

App. 41
as authorized by court rule, and such additional information as may be required. If the physical address provided is a mailing address only, the member also must
provide a street or building address for the member’s
business or residence. No member shall practice law in
this state until the information required in this Rule
has been provided. Members shall promptly update the
State Bar with any change of name, physical address,
or email address. The State Bar shall be entitled to due
notice of, and to intervene and be heard in, any proceeding by a member to alter or change the member’s
name. The name and address on file with the State Bar
at the time shall control in any matter arising under
these rules involving the sufficiency of notice to a member or the propriety of the name used by the member
in the practice of law or in a judicial election or in an
election for any other public office. Every active member shall annually provide a certification as to whether
the member or the member’s law firm has a policy to
maintain interest-bearing trust accounts for deposit of
client and third-party funds. The certification shall be
included on the annual dues notice and shall require
the member’s signature or electronic signature.
By order dated May 10, 2005, this Court adopted the
amendments of Rules 2, 5, and 6 of the Rules Concerning the State Bar of Michigan with immediate effect.
472 Mich cxii-cxv (2005). Notice and an opportunity for
comment at the September 29, 2005, public hearing
having been provided, and consideration having been
given, the amendments of Rules 2, 5, and 6 of the Rules
Concerning the State Bar of Michigan are retained.

App. 42
Rule 3 Membership Classes
(A)

Active.

A person engaged in the practice of law in Michigan
must be an active member of the State Bar. In addition
to its traditional meaning, the term “person engaged in
the practice of law” in this rule includes a person licensed to practice law in Michigan or another jurisdiction and employed in Michigan in the administration
of justice or in a position which requires that the person be a law school graduate, but does not include
(1) a judicial law clerk who is a member or is seeking
to become a member of the bar of another jurisdiction
and who does not intend to practice in Michigan after
the clerkship ends, or (2) an instructor in law. Only an
active member may vote in a State Bar election or hold
a State Bar office. A person not an active member who
engages in the practice of law is subject to discipline or
prosecution for unauthorized practice.
(B) Inactive. An active member may request an inactive classification.
(1) If the period of inactivity is less than 3 years,
the member may be reclassified as active by
(a)

applying to the State Bar secretary;

(b) paying the full amount of the annual
dues for the current fiscal year; and
(c) demonstrating that no disciplinary action has been taken or is currently pending in
another jurisdiction.

App. 43
(2) If the period of inactivity is 3 years or more,
the member must, in addition to fulfilling the requirements of subrule (B)(1)(a)-(c), obtain a certificate from the Board of Law Examiners that the
member possesses sufficient ability and learning
in the law to enable the member to properly practice as an attorney and counselor in Michigan.
If the inactive member has been or is currently
subject to disciplinary action in another jurisdiction, the application must be referred to the Attorney Discipline Board and action on the application
delayed until the board makes a decision.
(C)

Law Student.

A student in good standing at a law school approved by
the Board of Law Examiners or the American Bar Association may be a member of the law student section.
(D)

Affiliate.

A legal assistant as defined in the State Bar bylaws
may become an affiliate member of the State Bar of
Michigan and shall thereupon be a member of the legal
assistants section. A legal administrator as defined in
the State Bar bylaws may become an affiliate member
of the State Bar of Michigan and shall thereupon be a
member of the legal administrators section.
(E) Resignation. An active or inactive member who is
not subject to pending disciplinary action in this state
or any other jurisdiction may resign from membership
by notifying the secretary of the State Bar in writing.
The secretary shall notify the member when the request is accepted, whereupon the member no longer

App. 44
will be qualified to practice law in Michigan and no
longer will be eligible to receive any other member benefits. The secretary of the State Bar also shall notify
the clerk of the Supreme Court of the resignation. To
be readmitted as a member of the State Bar, a person
who has voluntarily resigned and who is not otherwise
eligible for admission without examination under Rule
5 of the Rules for the Board of Law Examiners must
reapply for admission, satisfy the Board of Law Examiners that the person possesses the requisite character
and fitness to practice law, obtain a passing score on
the Michigan Bar Examination, and pay applicable
fees and dues. Resignation does not deprive the Attorney Grievance Commission or the Attorney Discipline
Board of jurisdiction over the resignee with respect to
misconduct that occurred before the effective date of
resignation.
(F) Emeritus Membership. Effective October 1, 2004,
an active or inactive member who is 70 years of age or
older or has been a member of the State Bar for at least
30 years, and who is not subject to pending disciplinary
action in this state or any other jurisdiction, may elect
emeritus status by notifying the secretary of the State
Bar in writing. The secretary shall notify the member
when the request is accepted, whereupon the member
no longer will be qualified to practice law in Michigan,
but will be eligible to receive other member benefits as
directed by the Board of Commissioners of the State
Bar. The secretary of the State Bar also shall notify the
clerk of the Supreme Court when a member is given
emeritus status. Members who were age 70 or older as

App. 45
of October 1, 2003, who resigned or were suspended
from membership after October 1, 2003, but before
September 30, 2004, for nonpayment of dues are to be
automatically reinstated as emeritus members, effective October 1, 2004, unless they notify the secretary
of the State Bar that they do not wish to be reinstated.
(1) Grievances and Discipline. Emeritus status
does not deprive the Attorney Grievance Commission or the Attorney Discipline Board of jurisdiction over the emeritus member.
(2) Readmission. To be readmitted as an active
member of the State Bar, a member who has voluntarily elected emeritus status and who is not
otherwise eligible for admission without examination under Rule 5 of the Rules for the Board of Law
Examiners must reapply for admission, satisfy the
Board of Law Examiners that the person possesses the requisite character and fitness to practice law, obtain a passing score on the Michigan
Bar Examination, and pay applicable fees and
dues.
Rule 4 Membership Dues
(A) An active member’s dues for each fiscal year (October 1 through September 30) are payable at the State
Bar’s principal office by October 1 of each year. The
dues consist of three separate amounts to be set by the
Supreme Court to fund: (1) the Attorney Grievance
Commission and the Attorney Discipline Board, (2) the
client security fund administered by the State Bar, and
(3) other State Bar expenses. Each amount shall be

App. 46
listed separately in the dues notice. An inactive member shall be assessed one-half the amounts assessed an
active member for the client security fund and general
expenses, but the full amount designated for the discipline agencies.
(B) A member who is admitted to the State Bar between April 1 and September 30 shall be assessed onehalf the full amount of dues for that fiscal year.
(C) Dues notices must be sent to all members before
September 20. A $50 late charge will be added to a dues
payment postmarked after November 30. The State
Bar must send a written notice of delinquency to the
last recorded address provided as required by Rule 2
to a member who fails to pay dues by November 30.
Active members must be notified by registered or certified mail. Inactive members must be notified by first
class mail. If the dues and the late charge are not paid
within 30 days after the notice is sent, the individual
is suspended from membership in the State Bar. If an
individual is not subject to a disciplinary order and the
suspension is for less than 3 years, the member will be
reinstated on the payment of dues, a $100 reinstatement fee, and late charges owing from the date of the
suspension to the date of the reinstatement. If the suspension is for 3 years or more, the individual must also
apply for recertification under Rule 8 for the Board of
Law Examiners.
(D) A person who has been a member of the State Bar
for at least 50 years shall not be assessed general expenses, but shall pay the full amount assessed other

App. 47
members for the client security fund and the discipline
agencies. A member who elects emeritus status pursuant to Rule 3(F) is exempt from paying dues.
(E) An active or inactive member in good standing
serving in the United States Armed Forces in full-time
active-duty status, as defined by the United States Department of Defense, is eligible for a waiver of payment
of dues, including the attorney discipline system fee
and the client security fund assessment. An application for a waiver of dues that includes a copy of military orders showing federal active-duty status must be
made for each year for which a dues waiver is requested, and a waiver will be granted up to a total of
four times. A member for whom a waiver of dues is
granted continues to be subject to the disciplinary system.
(F) Annual dues for affiliate members and law student section members are established annually by the
Board of Commissioners in an amount not to exceed
one-third of the portion of dues for active members
which fund State Bar activities other than the attorney
discipline system and are payable at the State Bar’s
principal office by October 1 of each year.
(G) All dues are paid into the State Bar treasury and
maintained in segregated accounts to pay State Bar
expenses authorized by the Board of Commissioners
and the expenses of the attorney discipline system
within the budget approved by the Supreme Court, respectively.

App. 48
Rule 5 Board of Commissioners
Section 1. Powers, Functions, and Duties.
(a)

The Board of Commissioners shall
(1)

implement policy adopted by the assembly;

(2) establish policy for the State Bar between assembly meetings not inconsistent with prior action of the assembly;
(3) manage the State Bar, adopt a budget for it,
and supervise receipt and disbursements of State
Bar funds;
(4) prescribe the function and duties of committees;
(5) provide for the organization of sections (including a law student section) of the State Bar,
membership in which is voluntary, and determine
the amount and regulate the collection and disbursement of section dues;
(6) receive and review committee and section reports and recommendations proposing action by
the board and take interim or final action that the
board finds feasible, in the public interest, and germane to the functions and purposes of the State
Bar; and
(7) arrange for the publication of a journal to be
issued at least 4 times a year and sent to the active
members without charge.

App. 49
(b)

The Board of Commissioners may
(1)

adopt bylaws;

(2) appoint standing and special committees, including
(A)

character and fitness,

(B)

civil procedure,

(C)

court administration,

(D)

criminal jurisprudence,

(E)

fiscal,

(F)

grievance,

(G)

judicial qualifications,

(H)

legal education,

(I)

legislation,

(J)

professional and judicial ethics,

(K) scope and correlation, and
(L)

unauthorized practice of law;

(3) at the request of the governor, the legislature,
or the supreme court, or on its own initiative, conduct an investigation of any matter relating to the
state’s courts or tribunals, to the practice and procedure in them, or to the administration of justice,
and report to the officer or body making the request;
(4) acquire and hold real and personal estate by
lease, purchase, gift, devise, or bequest, and sell,
convey, mortgage, pledge, or release property;

App. 50
(5) borrow money and pledge for repayment in
annual installments, in anticipation of future revenues from annual membership dues, and issue
notes, but the total indebtedness outstanding may
not at any time exceed 40 percent and the principal installment due in one year may not exceed 8
percent of the revenues from required annual
membership dues for the 5 preceding fiscal years;
(6) accept and hold real and personal estate in
trust for any use or purpose germane to the general functions and purposes of the State Bar;
(7) bring an action or proceeding at law or in equity in a state or federal court or tribunal and intervene and be heard on an issue involving the
membership or affairs of the State Bar in an action
or proceeding pending in a state or federal court
or tribunal.
(c) The board may assign these powers, functions,
and duties to another State Bar agency but the board
may reverse or modify the exercise of a power, function,
or duty by a delegated agency.
Section 2. Membership; Terms. The board consists of:
(1) 20 elected members, each serving a 3-year
term commencing upon the adjournment of the
meeting of the outgoing Board of Commissioners
held at the annual meeting following the member’s election.
(2) 5 members appointed by the Supreme Court,
each serving a 3-year term commencing upon the
adjournment of the meeting of the outgoing Board
of Commissioners held at the annual meeting

App. 51
following the member’s appointment. In the event
that a commissioner appointed by the Supreme
Court is not appointed before the adjournment of
the annual meeting at which time he or she would
ordinarily take office, that member shall begin to
serve immediately upon appointment. Except
where appointment is made under Section 5, such
appointed commissioner shall be considered to
have been in office at the beginning of the term for
which the appointment is made.
(3) The chairperson-elect, the chairperson and
the immediate past chairperson of the State Bar
young lawyers section, each serving for the years
during which they hold those positions.
(4) The chairperson, vice-chairperson, and clerk
of the assembly, each serving for the years during
which they hold those positions.
Section 3. Election Districts; Apportionment. The board
shall establish commissioner election districts consisting of contiguous judicial circuits and containing, as
nearly as practicable, an equal lawyer population. The
largest geographic area may have the highest deviation from population equality.
The board shall review and revise election districts
every 6 years. If, as the result of a revision in election
districts, no elected commissioner maintains his or her
principal office in a district or a district has fewer
elected commissioners than it is entitled to, the board
may designate an elected commissioner or commissioner at large for the district until the next annual
election when the vacancy will be filled.

App. 52
To provide for an orderly transition and to preserve
the requirement that approximately one-third of the
elected board members are elected each year, the board
may extend the term of an elected commissioner for a
period not exceeding one year and the authorized
membership of the board will be enlarged for the period affected.
An elected commissioner whose district is merged with
another district as the result of a revision of commissioner election districts may nevertheless serve the full
term for which the commissioner was elected and the
authorized membership of the board will be temporarily enlarged for that purpose.
Section 4. Nomination and Election of Commissioners.
A commissioner is elected by the active members having their principal offices in the election district. To be
nominated, a member must have his or her principal
office in the election district and file a petition signed
by at least 5 persons entitled to vote for the nominee
with the secretary at the principal office of the State
Bar between April 1 and April 30. Voting eligibility is
determined annually on May 1. Before June 2, the secretary shall mail or electronically deliver a ballot to
everyone entitled to vote. A ballot will not be counted
unless marked and returned to the secretary at the
principal office of the State Bar in a sealed envelope
bearing a postmark date not later than June 15, or returned electronically or telephonically in conformity
with State Bar election procedure not later than June
15. A board of 3 tellers appointed by the president shall
canvass the ballots, and the secretary shall certify the

App. 53
count to the supreme court clerk. A member of or a candidate for the board may not be a teller. The candidate
receiving the highest number of votes will be declared
elected. In the case of a tie vote, the tellers shall determine the successful candidate by lot. In an election in
which terms of differing length are to be filled, the successful candidate with the lowest vote shall serve the
shortest term to be filled.
Section 5. Vacancy. The board shall fill a vacancy
among the elected commissioners and the Supreme
Court shall fill a vacancy among the appointed commissioners, to serve the remainder of an unexpired
term. If an elected commissioner moves his or her principal office out of his or her election district, the board
shall declare that a vacancy exists. If an elected or appointed commissioner does not attend two consecutive
meetings of the board without being excused by the
president because of a personal or professional emergency, the president shall declare that a vacancy exists.
Section 6. Meetings. The board shall meet during the
annual meeting of the State Bar and before the convening of the assembly and shall hold not less than 4
meetings each year. The interval between board meetings may not be greater than 3 months. A special meeting may be held at the president’s call and must be
held at the secretary’s call at the request of three or
more board members. At a meeting, a majority of the
board constitutes a quorum.
Section 7. Voting. Each member of the board may cast
only one vote. Voting by proxy is not permitted.

App. 54
By order dated May 10, 2005, this Court adopted the
amendments of Rules 2, 5, and 6 of the Rules Concerning the State Bar of Michigan with immediate effect.
472 Mich cxii-cxv (2005). Notice and an opportunity for
comment at the September 29, 2005, public hearing
having been provided, and consideration having been
given, the amendments of Rules 2, 5, and 6 of the Rules
Concerning the State Bar of Michigan are retained.
Rule 6 Representative Assembly
Section 1. Powers, Functions and Duties. The Representative Assembly is the final policy-making body of
the State Bar. No petition may be made for an increase
in State Bar dues except as authorized by the Representative Assembly.
Section 2. Membership. The assembly consists of:
(1)

142 elected representatives.

(2) 8 commissioner representatives who are the
members of the executive committee of the Board
of Commissioners. No other member of the board
may serve in the assembly.
Notwithstanding the provisions of this section, all
representatives previously appointed by the Supreme
Court shall serve until the end of their terms. The provisions of Section 6 with regard to the declaration of a
vacancy shall also apply, where applicable, to the remaining appointed representatives. Vacancies in appointed positions shall not be filled. In order to achieve
the increase in the number of elected representatives

App. 55
from 130 to 142, the assembly shall allocate additional
seats each year as necessary to replace former appointed representatives whose terms expire or whose
seats have become vacant.
Section 3. Election Districts; Apportionment. The assembly shall apportion the representatives every 6
years. The judicial circuits are the election districts.
Each judicial circuit is entitled to one representative.
The remaining seats are to be apportioned among the
circuits on the basis of lawyer population, determined
on February 1 of the reapportionment year. If as a result of the reapportionment any circuit becomes entitled to fewer representatives than are currently
elected therefrom, the assembly representatives from
that circuit may nevertheless serve the full terms for
which they were elected and the authorized membership of the assembly will be temporarily enlarged for
that purpose.
Section 4. Nomination and Election of Representatives.
A representative is elected by the active members having their principal offices in a judicial circuit. To be
nominated, a member must have his or her principal
office in the judicial circuit and file a petition signed by
at least 5 persons entitled to vote for the nominee with
the secretary at the principal office of the State Bar
between April 1 and April 30. Voting eligibility is determined annually on May 1. Before June 2, the secretary shall mail or electronically deliver a ballot to
everyone entitled to vote. When an assembly member
seeks reelection, the election notification must disclose
his or her incumbency and the number of meetings of

App. 56
the assembly that the incumbent has attended in the
following form: “has attended ___ of ___ meetings during the period of [his or her] incumbency.” A ballot may
not be counted unless marked and returned to the secretary at the principal office of the State Bar in a
sealed envelope bearing a postmark date not later than
June 15, or returned electronically or telephonically in
conformity with State Bar election procedure not later
than June 15. A board of tellers appointed by the president shall canvass the ballots and the secretary shall
certify the count to the supreme court clerk. A member
of or candidate for the assembly may not be a teller.
The candidate receiving the highest number of votes
will be declared elected. In the case of a tie vote, the
tellers shall determine the successful candidate by lot.
An election will occur in each judicial circuit every 3
years, except that in a judicial circuit entitled to 3 or
more representatives, one-third will be elected each
year. If a short-term representative is to be elected at
the same election as a full-term one, the member with
the higher vote total is elected to the longer term.
Section 5. Terms. An elected representative shall serve
a three-year term beginning with the adjournment of
the annual meeting following the representative’s election and until his or her successor is elected. A representative may not continue to serve after completing
two successive three-year terms unless service is extended under the provisions of Rule 7, Section 2.2
Section 6. Vacancy. If an elected representative ceases
to be a member of the State Bar of Michigan, dies during his or her term of office, moves his or her principal

App. 57
office out of the judicial circuit he or she represents, or
submits a written resignation acceptable to the chairperson, the chairperson shall declare that a vacancy
exists. If an elected representative does not attend two
consecutive meetings of the assembly without being
excused by the chairperson because of a personal or
professional emergency, or does not attend three consecutive meetings of the assembly for any reason or
reasons, the chairperson shall declare that a vacancy
exists.
When a vacancy exists, the remaining representatives
from the affected judicial circuit or, if there are none,
the State Bar-recognized local bar associations in the
affected judicial circuit, shall nominate a successor
prior to the next meeting of the assembly. The assembly may appoint such nominee or, in the event of failure to receive such nomination, any lawyer from the
affected judicial circuit, to fill the vacancy, effective immediately upon such appointment and continuing until the position is filled by the election process.
In the event that at the time a vacancy arises under
this rule more than eighteen months remain in the
term of an elected representative, there will be an election for the unexpired term at the next annual election
of representatives. If there are less than eighteen
months remaining in the term of an elected representative when a vacancy arises, no interim election
will be held. The interim appointment ends when the
secretary certifies the election count, and the person
elected shall take his or her seat immediately.

App. 58
Section 7. Meetings. The assembly shall meet:
(1)

during the annual meeting of the State Bar;

(2)

annually in March or April; and

(3)

at any other time and place it determines.

A special meeting may be called by the Board of Commissioners, or by the chairperson and clerk, who shall
determine the time and place of such meeting. A special meeting must be called by the chairperson on the
written request of a quorum of the Representative Assembly. Fifty members constitute a quorum. The chairperson of the assembly presides at all of its meetings.
The assembly may adopt rules and procedures for the
transaction of its business not inconsistent with these
rules or the bylaws of the State Bar. A section chairperson is entitled to floor privileges without a vote when
the assembly considers a matter falling within the section’s jurisdiction.
Section 8. Voting. Each member of the assembly may
cast only one vote. Voting by proxy is not permitted.
By order dated May 10, 2005, this Court adopted the
amendments of Rules 2, 5, and 6 of the Rules Concerning the State Bar of Michigan with immediate effect.
472 Mich cxii-cxv (2005). Notice and an opportunity for
comment at the September 29, 2005, public hearing
having been provided, and consideration having been
given, the amendments of Rules 2, 5, and 6 of the Rules
Concerning the State Bar of Michigan are retained.

App. 59
Rule 7 Officers
Section 1. President, President-elect, Vice-president, Secretary, and Treasurer. The officers of the Board of
Commissioners of the State Bar of Michigan are the
president, the president-elect, the vice-president, the
secretary, and the treasurer. The officers serve for the
year beginning with the adjournment of the annual
meeting following their election and ending with the
adjournment of the next annual meeting. A person may
serve as president only once.
After the election of board members but before the annual meeting each year, the Board of Commissioners
shall elect from among its members, by majority vote
of those present and voting, if a quorum is present:
(1) a vice-president who, after serving a one-year
term, automatically succeeds to the office of president-elect for a one-year term, and then to the office of president, for a one-year term;
(2)

a secretary; and

(3)

a treasurer.

If a vice-president is not able to assume the duties of
president-elect, the Board of Commissioners also shall
elect from among its members, by majority vote of
those present and voting, if a quorum is present, a
president-elect who becomes president on the adjournment of the next succeeding annual meeting.
A commissioner whose term expires at the next annual
meeting is not eligible for election as an officer unless
the commissioner has been reelected or reappointed

App. 60
for another term as a commissioner. If the remaining
term of a commissioner elected vice-president or
president-elect will expire before the commissioner
completes a term as president, the term shall be extended to allow the commissioner to complete the term
as president. If the term of an elected commissioner is
so extended, the authorized membership of the board
is increased by one for that period; a vacancy in the
district the vice-president or president-elect represents exists when the term as a commissioner would
normally expire, and an election to choose a successor
is to be held in the usual manner.
No person holding judicial office may be elected or
appointed an officer of the Board of Commissioners. A
judge presently serving as an officer may complete
that term but may not thereafter, while holding judicial office, be elected or appointed an officer. A person
serving as an officer who, after the effective date of this
amendment, is elected or appointed to a judicial office,
must resign as an officer of the board on or before the
date that person assumes judicial office.
Section 2. Chairperson, Vice-Chairperson, and Clerk of
the Assembly. A clerk of the Representative Assembly
chosen from the elected or appointed membership of
the assembly must be elected by the assembly at each
annual meeting by majority vote of those present and
voting, if there is a quorum present. The clerk serves a
one-year term beginning with the adjournment of the
annual meeting at which he or she is elected and ending with the adjournment of the next annual meeting
at which he or she becomes vice-chairperson for a

App. 61
one-year term concluding with the next annual meeting, at which time he or she becomes chairperson for a
one-year term concluding with the next annual meeting. If a representative is elected clerk of the assembly
with only one or two years of his or her term remaining, the term of the representative is extended for an
additional year or years to permit him or her to serve
consecutive terms as vice-chairperson, and chairperson. If the term of an elected representative is so extended, the authorized membership of the assembly is
increased by one for the appropriate period; a vacancy
in the judicial circuit the chairperson-elect or chairperson represents exists when his or her term would normally expire and an election conducted to choose a
successor having the vote to which the representative
for that judicial circuit is entitled is to be held in the
usual manner. Assembly officers may not concurrently
hold another State Bar office and may not be reelected
as assembly officers.
No person holding judicial office may be elected or
appointed an officer of the Representative Assembly. A
judge presently serving as an officer may complete that
term but may not thereafter, while holding judicial office, be elected or appointed an officer. A person serving
as an officer who, after the effective date of this amendment, is elected or appointed to a judicial office, must
resign as an officer of the assembly on or before the
date that person assumes judicial office.
Section 3. Duties. The president shall preside at all
State Bar meetings and at all meetings of the Board of

App. 62
Commissioners and perform other duties that are usually incident to that office.
The president-elect shall perform the duties assigned
by the president. If the president is unable to perform
his or her duties or is absent from a meeting of the
board or the State Bar, the president-elect shall perform the duties of the president while the disability or
absence continues.
The vice-president shall perform the duties assigned
by the president and if the president and presidentelect are unable to perform their duties or are absent
from a meeting of the board or the State Bar, the vicepresident shall perform the duties of the president
while the disability or absence continues.
The secretary shall act as secretary of the Board of
Commissioners, prepare an annual report, and perform the duties usually incident to that office.
The treasurer shall prepare an annual report and perform the duties usually incident to that office. The
treasurer will furnish bond that the Board of Commissioners directs.
The Board of Commissioners may assign other duties
to the president, president-elect, vice-president, secretary, and treasurer.
The chairperson of the Representative Assembly shall
preside at all of its meetings and perform the other
duties usually incident to that office, together with
additional duties the assembly may assign. The vicechairperson shall perform duties assigned by the

App. 63
chairperson or as the assembly may assign. The clerk
of the assembly shall act as secretary of the assembly
and perform the other duties the assembly assigns. If
the chairperson is unable to perform his or her duties
or is absent from a meeting of the assembly, the vicechairperson shall perform the chairperson’s duties
while the disability or absence continues.
Section 4. Vacancies. If any office other than that of
president or chairperson or vice-chairperson or clerk of
the Representative Assembly becomes vacant, the
Board of Commissioners shall fill the office for the unexpired term. If the office of president becomes vacant,
the president-elect becomes president for the unexpired term, and may continue as president at the adjournment of the next annual meeting. If the office of
president becomes vacant when the office of presidentelect is also vacant, the Board of Commissioners shall
fill both vacancies for the unexpired term. If the office
of chairperson of the Representative Assembly becomes
vacant, the vice-chairperson becomes chairperson for
the unexpired term, and may continue as chairperson
at the adjournment of the next annual meeting. If the
office of chairperson becomes vacant when the office of
vice-chairperson or clerk is also vacant, the assembly
shall fill all vacancies for the unexpired term at its
next meeting; the secretary shall convene and preside
at the meeting until successors are elected.

App. 64
Rule 8 Executive Director
The Board of Commissioners may appoint an Executive Director, and such assistants, who shall serve on a
full-time or part-time basis during such period and for
such compensation as the Board of Commissioners
may determine, but shall at all times be subject to removal by the board with or without cause. The Executive Director shall perform such duties as the Board of
Commissioners may from time to time prescribe. The
Executive Director shall have the privilege of the floor
at all meetings of the Board of Commissioners, Representative Assembly, sections, section councils, committees, or subcommittees, without vote.
Rule 9 Disbursements
The Board of Commissioners shall make the necessary
appropriations for disbursements from the funds of the
treasury to pay the necessary expenses of the State
Bar of Michigan, its officers, and committees. It shall
be the duty of the board to cause proper books of account to be kept and to have them audited annually by
a certified public accountant. On or before December
31 each year the board shall cause to be presented an
audited financial statement of the receipts and expenditures of the State Bar of Michigan for the fiscal
year ending the preceding September 30. Such a statement shall also be filed with the Clerk of the Supreme
Court and shall be published in the January issue of
the official publication of the State Bar of Michigan.

App. 65
No officer, member of the Board of Commissioners,
member of the Representative Assembly, or member of
a committee or section of the State Bar of Michigan
shall receive compensation for services rendered in
connection with the performance of his or her duties.
They may, however, be reimbursed for the necessary
expenses incurred in connection with the performance
of their duties.
Rule 10 Annual Meeting
The State Bar shall hold an annual meeting, which
shall include a meeting of the Board of Commissioners
and the Representative Assembly and, if requested,
the annual congress, as well as meetings of sections
and committees that the Board of Commissioners may
set. The Board of Commissioners shall designate the
time (no later than November 1) and place of the annual meeting.
Rule 11 Committees
Section 1. Appointment. Committees of the State Bar
of Michigan may be established for the promotion of
the objects of the State Bar of Michigan, and shall consist of limited numbers of members appointed by the
president with their number, jurisdiction, method of
selection and tenure determined in accordance with
the bylaws and the resolution establishing the committee. In the event of the resignation, death or disqualification of any member of a committee, the president

App. 66
shall appoint a successor to serve for the unexpired
term.
Section 2. Classes. The classes of committees of the
State Bar of Michigan shall be:
(a) Standing committees, for the investigation
and study of matters relating to the accomplishment of the general purposes, business and objects
of the State Bar of Michigan of a continuous and
recurring character, within the limitation of the
powers conferred.
(b) Special committees, created by resolution of
the Board of Commissioners defining the powers
and duties of such committees, to investigate and
study matters relating to the specific purposes,
business and objects of the State Bar of Michigan
of an immediate or non-recurring character. The
life of any special committee shall expire at the
end of the next annual meeting following its creation unless continued by action of the board.
Section 3. Powers. The Committee on Arbitration of
Disputes Among Lawyers, which has the authority to
arbitrate disputes voluntarily submitted by lawyers,
has the power to issue subpoenas (including subpoenas
duces tecum), to take testimony under oath, and to rule
on the admissibility of evidence according to the rules
of evidence applicable to civil cases.
Rule 12 Sections
Section 1. Establishment and Discontinuance. New sections may be established and existing sections may be

App. 67
combined or discontinued or their names changed by
the Board of Commissioners in a manner provided by
the bylaws.
Section 2. Bylaws. Each section shall have bylaws not
inconsistent with these Rules or the bylaws of the
State Bar of Michigan. Section bylaws or amendments
thereof shall become effective when approved by the
Board of Commissioners.
Section 3. Existing Sections. Sections in existence at
the time of the adoption of these Rules shall continue
unless changed by action of the Board of Commissioners.
Rule 13 Initiative
Three percent or more of the active members of the
State Bar may by written petition require consideration by the Representative Assembly of any question of
public policy germane to the function and purposes of
the State Bar; the assembly may take action on it that
it finds proper. The petition must be filed with the clerk
at least 90 days before any meeting of the Representative Assembly at which the subject matter is to be considered.
Rule 14 Congress
Section 1. Membership and Meeting. Twenty-five or
more active members of the State Bar may file a written petition with the secretary at the principal office of
the State Bar no later than 90 days before the annual

App. 68
meeting of the State Bar, to require the convening of a
congress of the active members of the State Bar in conjunction with the annual meeting to consider the subject matter raised in the petition. One hundred active
members constitute a quorum. The president is the
presiding officer of the congress and the secretary is
the secretary of the congress.
Section 2. Agenda. The congress shall consider all matters proposed for inclusion on its agenda in the petition
requesting its convening. The congress may take action
on the matters arising on its agenda that it deems warranted. The action is advisory only and must be communicated to the Board of Commissioners and to the
Representative Assembly, but the congress may by a
two-thirds vote place an issue on the agenda of the
board or assembly. If an issue so initiated is first considered by the board, the board shall notify the assembly of its action, and the assembly shall concur with,
modify, or reverse the board’s action.
Rule 15 Admission to the Bar
Section 1. Character and Fitness Committees.
(1) A standing committee on character and fitness
consisting of 18 active members of the bar shall be appointed annually by the president of the State Bar of
Michigan, who shall designate its chairperson. District
character and fitness committees consisting of active
members of the bar in each commissioner election district shall be appointed, and their chairpersons designated, by the State Bar commissioners within the

App. 69
respective districts, subject to approval by the State
Bar Board of Commissioners.
(2) The standing committee and the district committees under its supervision shall investigate and make
recommendations with respect to the character and fitness of every applicant for admission to the bar by bar
examination and, upon request of the Board of Law Examiners, the character and fitness of any other applicant for admission.
(3) The State Bar of Michigan shall assign staff to assist the standing and district committees in the discharge of their duties.
(4) The standing committee and each district committee shall meet at the times and places designated
by their respective chairpersons. Five members of the
standing committee or 3 members of a district committee shall constitute a quorum. The action of a majority
of those present constitutes the action of a committee.
(5) State Bar recommendations concerning the character and fitness of an applicant for admission to the
bar shall be transmitted to the Board of Law Examiners in accordance with the following procedure:
(a) An applicant shall be recommended favorably
by State Bar staff without referral to committee
when investigation of all past conduct discloses no
significant adverse factual information.
(b) In all other instances, applicants shall be referred to the appropriate district committee for
personal interview unless the chairperson or other

App. 70
member of the standing committee designated by
the chairperson determines that any adverse information reflected in the file would under no circumstance justify a committee determination that
the applicant does not possess the character and
fitness requisite for admission, in which event the
application shall be transmitted to the Board of
Law Examiners with a favorable recommendation.
(c) District committees shall, under the supervision and direction of the standing committee, investigate the character and fitness (other than
scholastic) of every applicant referred to them.
They shall do so by informal interview and any additional investigation which to them seems appropriate. District committees shall make a written
report and recommendation to the standing committee concerning each applicant referred to them.
(d) Upon receiving a district committee report
and recommendation, the standing committee shall
endorse the recommendation, take the recommendation under advisement pending the receipt of
additional information that it deems necessary, remand the recommendation to the district committee with instructions for further proceedings, or
reject the recommendation and conduct a hearing
de novo.
(e) If the standing committee endorses a report
and recommendation of a district committee that
an applicant has the requisite character and fitness for admission to the bar, it shall transmit that
recommendation to the Board of Law Examiners.

App. 71
(f ) If the standing committee endorses a report
and recommendation of a district committee that
an applicant does not have the requisite character
and fitness for admission to the bar, it shall furnish the applicant with a copy of the report and
recommendation and advise the applicant of the
right to a formal hearing before the standing committee provided request therefor is made in writing within 20 days. If the applicant requests a
formal hearing within the time permitted, a hearing shall be scheduled before the standing committee. If the applicant does not request a formal
hearing before the standing committee within
the time permitted, the standing committee shall
thereupon transmit the report and recommendation of the district committee to the Board of Law
Examiners.
(g) At the conclusion of any hearing conducted by
the standing committee it shall transmit its report
and recommendation to the Board of Law Examiners.
(6) Each applicant is entitled to be represented by
counsel at the applicant’s own expense at any stage of
character and fitness processing.
(7) Information obtained in the course of processing
an application for admission to the bar may not be used
for any other purpose or otherwise disclosed without
the consent of the applicant or by order of the Supreme
Court.
(8) Notwithstanding any prohibition against disclosure in this rule or elsewhere, the committee on character and fitness shall disclose information concerning

App. 72
a bar application to the Attorney Grievance Commission during the course of the commission’s investigation of a disciplined lawyer’s request for reinstatement
to the practice of law. Upon receiving a request for
character and fitness information and proof that a disciplined lawyer is seeking reinstatement to the practice of law, the committee shall notify the lawyer that
the commission has requested the lawyer’s confidential file. The committee then shall disclose to the
commission all information relating to the lawyer’s
bar application. The commission and the grievance administrator shall protect such information, as provided
in MCR 9.126(D). The administrator shall submit to a
hearing panel, under seal, any information obtained
under this rule that the administrator intends to use
in a reinstatement proceeding. The hearing panel shall
determine whether the information is relevant to the
proceeding, and only upon such a determination may
the administrator use the information in a public
pleading or proceeding.
(9) Any information pertaining to an application for
admission to the bar submitted to a district committee,
the standing committee, the Board of Law Examiners
or the Supreme Court must also be disclosed to the applicant.
(10) A person is absolutely immune from suit for
statements and communications transmitted solely to
the State Bar staff, the district committee, the standing committee or the Board of Law Examiners, or given
in the course of an investigation or proceeding concerning the character and fitness of an applicant for

App. 73
admission to the bar. The State Bar staff, the members
of the district and standing committees and the members and staff of the Board of Law Examiners are absolutely immune from suit for conduct arising out of
the performance of their duties.
(11) The standing committee has the power to issue
subpoenas (including subpoenas duces tecum), to take
testimony under oath, and to rule on the admissibility
of evidence guided, but not strictly bound, by the rules
of evidence applicable to civil cases. An applicant is entitled to use the committee’s subpoena power to obtain
relevant evidence by request submitted to the chairperson of the standing committee.
(12) Formal hearings conducted by the standing committee shall be suitably recorded for the later production of transcripts, if necessary.
(13) An applicant is entitled to a copy of the entire
record of proceedings before the standing committee at
the applicant’s expense.
(14) An applicant is entitled to at least 10 days notice
of scheduled district committee interviews and standing committee hearings. The notice shall contain the
following information:
(a) The time and place of the interview or hearing;
(b) A statement of the conduct which is to be the
subject of the interview or hearing;
(c) The applicant’s right to be represented by
counsel; and

App. 74
(d) A description of the procedures to be followed
at the interview or hearing, together with copies of
any applicable rules.
(15) An applicant has the burden of proving by clear
and convincing evidence that he or she has the current
good moral character and general fitness to warrant
admission to the bar.
(16) Upon request made no later than 5 days prior to
a scheduled interview or hearing, the applicant and
State Bar staff may demand of the other that they be
furnished with the identity of any witnesses to be produced at the interview or hearing as well as an opportunity for inspecting or copying any documentary
evidence to be offered or introduced.
(17) If an application is withdrawn following an adverse recommendation by a district committee or the
standing committee, or, if following such an adverse
recommendation the applicant fails to appear for further proceedings or takes no further action, the standing committee shall notify the applicant that the
application for admission to the bar may not be renewed until the expiration of two years from the date
of the adverse recommendation by the district committee or by the standing committee, or such greater period as the committee specifies, up to a maximum
period of five years. The notification shall specify the
reasons for the imposition of a waiting period that is
longer than two years.
(18) An applicant who has been denied character and
fitness certification for admission to the bar by the

App. 75
Board of Law Examiners may not reapply for character
and fitness certification for a period of two years following the denial or such greater period specified in
the decision denying certification, up to a maximum
period of five years. The decision shall specify the reasons for the imposition of a waiting period that is
longer than two years.
(19) The standing committee may adopt rules of procedure governing the processing and investigation of
applications for admission to the bar and proceedings
before district committees and the standing committee
not inconsistent with these rules.
(20) An applicant is entitled to review by the Board
of Law Examiners of any report and recommendation
filed with the board concluding that the applicant does
not have the character and fitness requisite for admission.
(21) Every applicant for admission by examination
and any other applicant whose application is submitted to the standing committee on character and fitness
for evaluation and recommendation shall pay to the
State Bar of Michigan a fee of $375 for the character
and fitness investigation authorized by this rule. An
additional fee of $175 shall be required for character
and fitness evaluations related to applications for the
February examination that are submitted after November 1, and applications for the July examination
that are submitted after March 1.
Section 2. Foreign Attorney; Temporary Permission.
Any person who is duly licensed to practice law in

App. 76
another state or territory, or in the District of Columbia, of the United States of America, or in any foreign
country, may be temporarily admitted under MCR
8.126.
Section 3. Procedure for Admission; Oath of Office. (1)
Each applicant to whom a certificate of qualification
has been issued by the board of law examiners is required to appear personally and present such certificate to the Supreme Court or one of the circuit courts
of this state. Upon motion made in open court by an
active member of the State Bar of Michigan, the court
may enter an order admitting such applicant to the bar
of this state. The clerk of such court is required to
forthwith administer to such applicant in open court
the following oath of office:
I do solemnly swear (or affirm):
I will support the Constitution of the United
States and the Constitution of the State of Michigan;
I will maintain the respect due to courts of justice
and judicial officers;
I will not counsel or maintain any suit or proceeding which shall appear to me to be unjust, nor any
defense except such as I believe to be honestly debatable under the law of the land;
I will employ for the purpose of maintaining the
causes confided to me such means only as are consistent with truth and honor, and will never seek
to mislead the judge or jury by any artifice or false
statement of fact or law;

App. 77
I will maintain the confidence and preserve inviolate the secrets of my client, and will accept no
compensation in connection with my client’s business except with my client’s knowledge and approval;
I will abstain from all offensive personality, and
advance no fact prejudicial to the honor or reputation of a party or witness, unless required by the
justice of the cause with which I am charged;
I will never reject, from any consideration personal to myself, the cause of the defenseless or oppressed, or delay any cause for lucre or malice;
I will in all other respects conduct myself personally and professionally in conformity with the high
standards of conduct imposed on members of the
bar as conditions for the privilege to practice law
in this state.
(2) The applicant is required to subscribe to such
oath of office by signing a copy and to register
membership in the State Bar of Michigan in the
manner prescribed in Rule 2 of these rules and to
pay the required dues before practicing law in this
state. The clerk shall record such admission, in the
journal of such court, and shall preserve such oath
of office in the records of the court. A roll of all persons admitted to the bar shall be kept in the office
of the clerk of the Supreme Court.
(3) Admission to the bar of this state is an authorization to practice as an attorney and counselor in every court in this state.

App. 78
Rule 16 Unauthorized Practice of the Law
The State Bar of Michigan is hereby authorized and
empowered to investigate matters pertaining to the
unauthorized practice of law and, with the authority
of its Board of Commissioners, to file and prosecute
actions and proceedings with regard to such matters.
Rule 17 Mandatory Legal Education Program
for New Admittees to the Michigan Bar
[Rescinded March 22, 1994, effective April 1, 1994, 444
Mich.]
Rule 19 Confidentiality of State Bar Records
Sec. 1. Except as provided below, in Rule 15, or as
otherwise provided by law, records maintained by the
state bar are open to the public pursuant to the State
Bar of Michigan Access to Information Policy.
Sec. 2. Records and information of the Client Protection Fund, Ethics Program, Lawyers and Judges Assistance Program, Practice Management Resource Center
Program, and Unauthorized Practice of Law Program
that contain identifying information about a person
who uses, is a participant in, is subject to, or who inquires about participation in, any of these programs,
are confidential and are not subject to disclosure, discovery, or production, except as provided in section (3)
and (4).

App. 79
Sec. 3. Records and information made confidential
under section (1) or (2) shall be disclosed:
(a)

pursuant to a court order;

(b) to a law enforcement agency in response to a
lawfully issued subpoena or search warrant, or;
(c) to the attorney grievance commission or attorney discipline board in connection with an
investigation or hearing conducted by the commission or board, or sanction imposed by the board.
Sec. 4. Records and information made confidential
under section (1) or (2) may be disclosed:
(a) upon request of the state bar and approval by
the Michigan Supreme Court where the public interest in disclosure outweighs the public interest
in nondisclosure in the particular instance, or
(b) at the discretion of the state bar, upon written
permission of all persons who would be identified
by the requested information.

App. 80
Exhibit B
State Bar of Michigan
Client Protection Fund Rules
State Bar of Michigan Client Protection Fund
Rules
Client Protection Fund Rules
RULE 1—PURPOSE AND SCOPE
A. The purpose of the Michigan Client Protection
Fund [Fund] is to promote public confidence
in the administration of justice and integrity
of the legal profession by reimbursing losses
caused by the dishonest conduct of lawyers
admitted and licensed to practice law in Michigan. Reimbursable losses must have occurred
in the course of the lawyer-client or other fiduciary relationship between the lawyer and
claimant and must have a significant contact
with Michigan.
B.

For purposes of these Rules, the term “lawyers
admitted and licensed to practice law” includes lawyers admitted pro hoc vice and lawyers recently suspended or disbarred whom
clients reasonably believed to be licensed or
admitted to practice at the time the dishonest
conduct occurred. If the lawyer was under an
order of interim suspension, suspension or
revocation issued at least six months prior to
the dishonest conduct, it may be presumed
that the client was unreasonable in believing
that the lawyer was licensed or admitted to
practice law at the time of the dishonest conduct.

App. 81

RULE 2—ESTABLISHMENT
A. The Fund is established to reimburse claimants for losses that arise out of dishonest conduct that has a significant contact with
Michigan committed by lawyers admitted to
practice in Michigan.
B.

The Fund is under the supervision of the
Board of Commissioners of the State Bar of
Michigan, which shall receive, hold, manage
and disburse from the Fund the monies the
Fund receives through per lawyer assessments, voluntary contributions, unused judicial campaign funds and otherwise.

C.

These Rules shall be effective for claims filed
with the Fund on or after January 1, 2004.

RULE 3—FUNDING AND MANAGEMENT
A.

The Supreme Court has provided for the financing of the Fund through imposition of an
annual, per lawyer assessment of all Michigan lawyers, beginning with the 2003-2004
fiscal year.

B.

The Fund also receives unused judicial campaign contributions pursuant to Canon Seven
(B) of the Michigan Code of Judicial Conduct,
voluntary contributions and other miscellaneous contributions as appropriate.

App. 82
C.

The Board of Commissioners shall:
1.

Take all appropriate and available measures to ensure that the Fund is financed
at an amount adequate to provide for the
proper payment of claims and costs of administering the Fund.

2.

Prudently invest such monies of the Fund
that may not be needed currently to pay
losses and to maintain sufficient reserves
as appropriate.

3.

Employ adequate staff to assure the effective and efficient performance of the
Fund functions and purposes.

4.

Retain and compensate consultants, administrative staff, investigators, actuaries,
agents, legal counsel and other persons as
necessary.

5.

Prosecute claims for restitution to which
the Fund is entitled.

RULE 4—FUNDS
All monies or other assets of the Fund shall constitute
a trust and shall be held in the name of the Fund, subject to the direction of the Board of Commissioners.
RULE 5—THE CLIENT PROTECTION FUND
COMMITTEE
A Standing Committee [Committee] of at least seven
members of the State Bar of Michigan shall administer

App. 83
the Fund. The appointment and tenure of Committee members shall be in accordance with Article VI,
Section 2 of the Bylaws of the State Bar of Michigan
unless the Board of Commissioners specifically authorizes otherwise.
RULE 6—COMMITTEE MEETINGS
A. The Committee shall meet as frequently as
necessary to conduct the business of the Fund
and to timely process claims.
B.

The chairperson may call a meeting at any
reasonable time and shall call a meeting upon
the request of at least two members.

C.

A majority of the members of the Committee
shall constitute a quorum for the transaction
of its business.

D. Minutes of the meetings shall be taken and
maintained.
E. Any Committee member missing three consecutive meetings without an excused absence from the Chairperson shall be deemed
to have resigned from the Committee and the
member’s seat on the Committee shall be open
to appointment.
Any Committee member missing three consecutive meetings with an excused absence
may be subject to a review of whether their
appointment on the Committee remains feasible and is the best interest of the Committee.

App. 84
RULE 7—DUTIES AND RESPONSIBILITIES OF
THE COMMITTEE
A. The Committee shall have the following duties and responsibilities to:
1.

Review all claims submitted to the Committee by staff after investigation and
analysis;

2.

Make a recommendation to the Board of
Commissioners regarding whether the
claims should be paid or denied, why the
claim is recommended for payment or denial and the amount which should be paid
on the claim;

3.

Make recommendations to the Board of
Commissioners regarding policies and procedures involving the Fund as it deems
necessary and appropriate;

4.

Provide a full report, at least annually, to
the Board of Commissioners and to provide other necessary reports;

5.

Publicize its activities to the public and
the Bar;

6.

Retain legal counsel for subrogation recovery efforts for restitution to which the
Fund is entitled; and

7.

Authorize studies and programs for client
protection and prevention of dishonest
conduct by lawyers.

App. 85
RULE 8—CONFLICT OF INTEREST
A. A Committee member or Commissioner who
has or has had a lawyer-client relationship or
financial relationship with a claimant or lawyer who is the subject of a claim shall not participate in the investigation or adjudication of
a claim involving that claimant or lawyer.
B.

A Committee member or Commissioner with
a past or present relationship, other than as
provided in Paragraph A, with a claimant or
the lawyer whose alleged conduct is the subject of the claim, or who has other potential
conflicts of interest, shall disclose such relationship to the Committee and the Board of
Commissioners and, if the Committee and
Board of Commissioners deems appropriate,
that Committee member or Commissioner
shall not participate in any proceeding relating to such claim.

RULE 9—ELIGIBLE CLAIMS
A.

The loss must be caused by dishonest conduct
that has a significant contact with the State
of Michigan and shall have arisen out of a lawyer-client relationship or other fiduciary relationship between the lawyer and the claimant
where the lawyer was admitted or licensed to
practice law in Michigan at the time of the dishonest conduct or the lawyer was suspended
or disbarred but whom the client reasonably
believed to be licensed or admitted when the
dishonest conduct occurred. If the lawyer
was under an order of interim suspension,

App. 86
suspension or revocation issued at least six
months prior to the dishonest conduct, it may
be presumed that the client was unreasonable
in believing that the lawyer was licensed or
admitted to practice law at the time of the dishonest conduct.
B.

The dishonest conduct upon which the claim
is predicated must have been reported to either the Attorney Grievance Commission, or
a law enforcement authority, or the claimant
must have filed a claim in any court or tribunal having jurisdiction within two years
after the dishonest act, or, if the dishonest act
could not then have reasonably been discovered, within six months after the claimant
did or reasonably should have discovered
the dishonest conduct upon which the claim
is predicated, whichever is later. A claim for
reimbursable losses must be reported to a law
enforcement authority by the claimant when
in excess of $20,000 or requested by Client
Protection Fund staff.
A claim must be filed with the Client Protection Fund no later than one (1) year after the
determination by the Attorney Grievance Commission and/or Attorney Discipline Board.

C.

As used in these Rules, “dishonest conduct”
means wrongful acts committed by a lawyer
like theft or embezzlement of money or the
wrongful taking or conversion of money, property or other things of value, including, but
not limited to:

App. 87
1.

Failure to refund unearned fees as required by Rule 1.16 of the Michigan Rules
of Professional Conduct.

2.

Borrowing money from a client without
the intent to repay it, or with disregard of
the lawyer’s inability or reasonably anticipated inability to repay it.

3.

Settling a case without the authorization
and knowledge of the client and misappropriating the settlement proceeds. In
such instances the Committee may, in its
discretion, presume that the lawyer settled the case for less than full value and
waives the right or is estopped from receiving a credit for the attorney’s fees.

4.

Receiving funds or property from a client
to invest the funds or property where:
a.

The lawyer knew the clients(s) had
funds to invest because of information
acquired through a lawyer-client relationship regardless of whether there
was an on-going or existing lawyerclient relationship at the time of the
investment, and

b.

The lawyer possessed a higher degree of sophistication and knowledge
than the client or where there is a
historical relationship of trust and
reliance on the lawyer by the client,
and

App. 88
c.

The investment vehicle or project:
1.

Did not exist, or

2.

The actual nature and characteristics of the investment vehicle or
project differed substantially from
the representations made to the
client regarding the investment
vehicle or project, or

3.

The disbursement was made directly to the lawyer, friend, relative of the lawyer or an entity
controlled by either, where the investment vehicle or project could
reasonably be viewed as a nonlegitimate investment vehicle or
project under the totality of the
facts.

D. Except as provided by section F of this Rule,
the following losses shall not be reimbursable:
1.

Losses incurred by spouses, children, parents, grandparents, siblings, partners, associates, employers and employees of
lawyer(s) causing the losses;

2.

Losses covered by any bond, surety agreement, or insurance contract to the extent
covered, including any loss to which any
bonding agent, surety or insurer is subrogated, to the extent of that subrogated interest;

3.

Losses incurred by any financial institution which are recoverable under a

App. 89
“banker’s blanket bond” or similar commonly available insurance or surety contract;
4.

Losses incurred by any business entity
controlled by the lawyer, or any person or
entity described in section D(1), (2), or (3)
hereof;

5.

Losses incurred by any governmental entity or agency;

6.

Loss of money or property paid to a lawyer for services rendered or to be rendered unless there was a failure to refund
unearned legal fees or the fee was unreasonable in light of the work performed
under the factors set forth in Michigan
Rule of Professional Conduct 1.5 and the
State Bar of Michigan Ethics Opinions regarding attorney’s fees;

7.

Consequential or incidental damages such
as lost interest or attorney’s fees or other
costs incurred in seeking recovery of a
loss; or

8.

Losses arising from the inadequate, insufficient or negligent rendition of services.

E. Claims are excluded if the dishonest conduct
occurred during a period when the lawyer was
under an order of interim suspension, suspension, or revocation issued at least six months
prior to the dishonest conduct and the client
was unreasonable in believing that the lawyer

App. 90
was licensed or admitted to practice law at the
time of the dishonest conduct.
F.

In cases of extreme hardship or special and
unusual circumstances, the Committee may
recommend and the Board may, in its discretion, authorize payment of a claim that would
otherwise be excluded under these Rules.

G. In cases where it appears that there will be
unjust enrichment, or the claimant unreasonably or knowingly contributed to the loss, the
Board may, in its discretion, deny the claim.
RULE 10—PROCEDURES AND RESPONSIBILITIES FOR CLAIMANTS
A.

The Committee shall prepare and approve an
application form for claiming reimbursement.

B.

The form shall include at least the following
information provided by the claimant under
penalty of perjury:
1.

The name and address of claimant, home
and business telephone, occupation and
social security number;

2.

The name, address and telephone number
of the lawyer alleged to have dishonestly
taken the claimant’s money or property,
and any family or business relationship of
the claimant to the lawyer;

3.

The legal or other fiduciary services the
lawyer was to perform for the claimant;

4.

The amount paid to the lawyer;

App. 91
5.

A copy of any written agreement pertaining to the claim;

6.

Satisfactory evidence of payment;

7.

The amount of loss and the date when the
loss occurred;

8.

The date when the claimant discovered
the loss and how the claimant discovered
the loss;

9.

A description of the lawyer’s dishonest
conduct and the names and addresses of
any persons who have knowledge of the
loss;

10. The name of the entity that the loss has
been reported (e.g. prosecuting attorney,
police, disciplinary agency, or other person or entity) and a copy of any complaint
and description of any action that was
taken;
11. The source, if any, from which the loss can
be reimbursed including any insurance,
fidelity or surety agreement;
12. The description of any steps taken to recover the loss directly from the lawyer or
any other source;
13. Information regarding any source from
which the claimant may be reimbursed
for any part of the claim (including the
amount received, or to be received, and
the source) and a statement that the
claimant agrees to notify the Fund of any

App. 92
reimbursements received during the pendency of the claim;
14. The facts believed to be important to the
Fund’s consideration of the claim;
15. How the claimant learned about the
Fund;
16. The name, address, and telephone number of the claimant’s present lawyer;
17. The claimant’s agreement to cooperate
with the State Bar of Michigan regarding
the claim or with any civil actions which
may be brought in the name of the State
Bar of Michigan pursuant to a subrogation and assignment clause;
18. The claimant’s agreement to repay the
Fund if the claimant is subsequently reimbursed from another source;
19. The name and address of any other fund
to which the claimant has applied or intends to apply for reimbursement and a
copy of the application; and
20. A statement that the claimant agrees to
the publication of appropriate information
about the nature of the claim and the
amount of reimbursement if reimbursement is made.
C.

The claimant shall have the responsibility to
complete the claim form and provide satisfactory evidence of a reimbursable loss.

App. 93
D. No attorney shall be compensated for providing services regarding the CPF application
process or the CPF claim administration process except for an amount not to exceed $250
or as authorized by the Board.
All members of the State Bar of Michigan are
urged to give assistance to any claimant in
presenting claims to the Fund without fee.
Claimants are advised that, except in unusual
circumstances, the assistance of an attorney
may not be necessary in filing a claim since
the Committee has available staff, which will
investigate the underlying facts. The foregoing sub-paragraph shall appear prominently
on the application form.
E.

The claim shall be filed with the State Bar of
Michigan in the manner and place designated.

RULE 11—PROCESSING CLAIMS
A. When it appears that a claim is not eligible for
reimbursement under Rule 9, the claimant
shall be notified why the claim is not eligible
for reimbursement, and, if appropriate, that
unless additional facts to support eligibility
are submitted to the Fund, the file will be
closed, and that the claimant may submit a
request for review of this decision by the
Board of Commissioners in writing within 30
days of the date of notice.
B.

An order disciplining respondent for the same
dishonest act or conduct alleged in a claim, or

App. 94
a final judgment imposing civil or criminal liability therefor, shall be conclusive evidence
that the respondent committed the dishonest
act or conduct.
C.

The Attorney Grievance Commission of the
claim and request information related to its
investigation on the matter. The Fund will
promptly notify the Attorney Discipline Board
of payment of any claim and request that any
order include language requiring that restitution first be made directly to the Fund until
the Fund is paid in full.

D. The Committee may conduct its own investigation when it deems it appropriate.
E. A copy of the claim shall be served in a manner set forth in the Michigan Court Rules for
service of a civil complaint upon the respondent at the respondent’s address on file with
the State Bar of Michigan, or last known address, or the respondent’s representative. The
respondent or representative shall have 30
days to respond or such further time as permitted by staff. If served by certified mail and
returned “unclaimed” or “refused”, all future
documents may be sent to respondent via first
class mail. If documents are returned as undeliverable and no forwarding address can be
obtained, then the Fund is exempt from mailing a copy of the claim to respondent until a
current address can be obtained or a final determination has been mailed to Claimant. If
the respondent fails to timely respond to the
notice of claim, the respondent shall not be

App. 95
given further opportunity to respond or otherwise defend the claim, including a request for
review, unless good cause is shown.
F.

The Committee may request that testimony
be presented to complete the record. Upon request, the claimant or respondent, or their
representatives, may be given an opportunity
to be heard, the decision being within the discretion of the Committee or the Board of Commissioners.

G. The Committee may make a finding of dishonest conduct premised upon a preponderance of
evidence to determine whether a claim should
be approved or denied. Such a determination
is not a finding of dishonest conduct for purposes of professional discipline.
H. When the record is complete, the claim shall
be determined based upon all available evidence and the claimant and the respondent
notified of the Committee’s determination and
its reasoning. The approval or denial of a
claim requires the affirmative vote of the majority of attending Committee members, provided there is a quorum for the meeting.
I.

Rules of evidence, procedures, and witnesses
do not apply to any claim proceeding. All relevant evidence shall be admitted if it is the
type of evidence on which responsible persons
are accustomed to rely in the conduct of serious affairs. The claimant shall have the duty
to supply relevant evidence to support the
claim. Evidence of a claim may be provided by
other sources such as the Attorney Grievance

App. 96
Commission, law enforcement, or court proceedings.
J.

The Committee may require the claimant to
seek reimbursement from any other source
that may be legally responsible for the loss.

K. Unless the totality of the circumstances warrants otherwise, no claim should be approved
during the pendency of a disciplinary proceeding involving the same conduct alleged in the
complaint.
L.

Both the claimant and the respondent shall be
advised of the Committee’s findings, recommendation and reasons as soon as practicable
and shall be informed of the final determination by the Board of Commissioners and the
opportunity to submit a request for review.

M. The claimant or respondent may submit a request for review in writing within 30 days of
the notice of denial or determination of the
amount of a claim by the Committee. Only the
record established for review by the Committee may be considered in a request for review,
except the Board of Commissioners, in its discretion, may consider newly discovered evidence in a request for review which by due
diligence could not be reasonably discovered
in time for review and determination by the
Committee. If the claimant or respondent fails
to make a request, the decision of the Committee is final if the Board of Commissioners fully
accepts the Committee’s determination as the
final determination.

App. 97
A timely request for review of the Committee’s decision shall be submitted to the Board
of Commissioners for review and a final determination.
A de novo standard of review shall apply to a
request for review. The requestor must show
by a preponderance of the evidence that the
decision was incorrect.
The claimant and respondent may submit a
request for review in writing within 30 days
of notice of the Board of Commissioner’s final
determination only when the Board of Commissioners does not fully accept the Committee’s determination as the final determination.
If the final determination notice to either
party is returned and a forwarding address
cannot be obtained from the post office, then
the period to submit a request for review, if
applicable, begins to run 5 days after the date
of the correspondence.
RULE 12—PAYMENT OF REIMBURSEMENT
A. The Board of Commissioners may establish a
maximum amount of reimbursement that is
payable by the Fund.
B.

The maximum amount payable by the Fund
due to any incident or series of incidents constituting the execution of a coordinated plan
or system of fraud against a single claimant;
and the maximum payable to any claimant
because of the dishonesty of a single lawyer or
group of lawyers acting in collusion, shall be

App. 98
$150,000. A “Claimant” for this purpose may
be taken to mean any group of persons who
shall have a mutual or common interest in the
relationship with the lawyer, even though
each member of such group may separately
sustain a loss, as with corporations, partnerships, associations, estates of decedents, and
persons having mutual, common or joint interests in property.
C.

The aggregate maximum amount for which
the Fund shall reimburse losses as the result
of the dishonesty of a single lawyer or group
of lawyers acting in collusion is $375,000.
Whenever it appears to the Fund that claims
may exceed this limit, additional claims
against the lawyer or lawyers shall not be
paid for two years following the filing of the
initial claim against the lawyer or lawyers.
The claims that have been processed and
those approved by the Committee and not yet
paid are, if necessary, apportioned on a prorata basis so that the total payments do not
exceed $375,000 using the following calculation:
Individual claim amount loss = % of maximum limit to be paid on claim Total amount
lost
However, the maximum amount payable to a
single claimant may not exceed $150,000.00,
if so, the percentage awarded to that claimant
is set at 40% or $150,000.00 and the remainder of the funds are pro-rated between the remaining claimants.

App. 99
D. If a claimant is a minor or an incompetent, the
reimbursement may be paid to any person or
entity authorized to receive the reimbursement for the benefit of the claimant.
E. The Board of Commissioners may approve
payment of a claim at an amount that exceeds
the maximum limits where the totality of the
circumstances, in light of the purposes and
policies of the Fund, warrants doing so.
F.

Payments shall be made in such amounts and
at such times as the Committee or staff recommends and the Board of Commissioners
deems appropriate, and may be paid in lump
sum or installment payments.

RULE 13—REIMBURSEMENT FROM FUND IS A
MATTER OF GRACE
No person shall have the legal right to reimbursement
from the Fund whether as a claimant, third party beneficiary or otherwise.
RULE 14—REIMBURSEMENT, RESTITUTION
AND SUBROGATION
A. A lawyer whose dishonest conduct results in
reimbursement to a claimant may be liable to
the Fund for restitution and State Bar of
Michigan may initiate of an action seeking reimbursement.
B.

A lawyer whose dishonest conduct has resulted in reimbursement to a claimant shall
make restitution to the Fund including

App. 100
interest and the expense incurred by the Fund
in collection reimbursement. A lawyer’s failure to make satisfactory arrangement for
restitution may be cause for suspension, disbarment or denial of an application for reinstatement.
C.

As a condition of reimbursement, and to the
extent of the reimbursement provided by the
Fund, a claimant shall be required to provide
the Fund with a transfer of the claimant’s
rights against the lawyer, the lawyer’s legal
representative, estate or assigns; and of the
claimant’s rights against any third party or
entity who may be liable for the claimant’s
loss, unless the Board of Commissioners decides otherwise.

D. To the extent the claimant has sustained a
loss in excess of the amount of reimbursement
received from the Fund, the claimant shall be
entitled to participate in any action commenced by the State Bar of Michigan pursuant to the subrogation rights received by the
Fund’s reimbursement to the claimant. Upon
commencement of an action by the State Bar
of Michigan as subrogee or assignee of a claim,
it shall advise the claimant, who may then
join in such action to recover the claimant’s
unreimbursed losses.
E.

The claimant shall be required to agree to cooperate in all efforts that the State Bar of
Michigan undertakes to achieve restitution
for the Fund, and to repay the Fund if claimant is subsequently reimbursed from another

App. 101
source in an amount that exceeds the difference between the amount of total loss identified by the Fund and the Fund award. Such
repayment shall not exceed the amount of the
Fund award, unless the Board of Commissioners decides otherwise.
F.

The Fund may undertake all reasonable efforts to pursue subrogation rights assigned to
the Fund. The Fund is authorized to obtain
necessary services to pursue such subrogation
rights including legal services, and to pay
reasonable fees for those services. The normal legal and equitable principles regarding
subrogation actions shall apply to the State
Bar of Michigan’s efforts to recoup the amount
paid to the claimant.

G. While all fees and costs, including attorney
fees, incident to prosecution of subrogation
rights shall be paid by the Fund, any recovery
obtained by the Fund shall first be used to
reimburse the Fund for such fees and costs,
including attorney fees and second, to reimburse the Fund for the amount paid to claimant. The remainder of any recovery received
by the Fund shall be paid to the claimant unless the Fund has unreimbursed claims from
other claimants that involve the same attorney. In such an instance, the distribution and
division of the excess recovery between the
State Bar of Michigan and claimant shall be
subject to negotiation between the parties,
and subject to Board of Commissioners approval.

App. 102
H. In the event that the claimant commences an
action to recover unreimbursed losses against
the lawyer or another entity that may be liable for the claimant’s loss, the claimant shall
be required to notify the State Bar of Michigan of such action.
I.

The Committee or staff may make a recommendation to the Board of Commissioners
that subrogation not be pursued or, pursued
in a fashion that deviates from these rules
when the totality of the circumstances warrant.

RULE 15—CONFIDENTIALITY
A. Claims, proceedings and reports involving
claims for reimbursement are confidential
until the Board authorizes reimbursement,
except as provided below or unless provided
otherwise by law. After payment of the reimbursement, the Fund may publicize the
nature of the claim, the amount of reimbursement, and the name of the lawyer. The
name and address of the claimant shall not be
publicized by the Board unless specific permission has been granted by the claimant. A
protective order will be sought to preserve
confidences of the claimant where appropriate.
B.

This Rule shall not be construed to deny access to relevant information by professional
discipline agencies or other law enforcement
authorities as the Board shall authorize, or
the release of statistical information which

App. 103
does not disclose the identity of the parties or
the use of such information is necessary to
pursue the Fund’s subrogation rights.
RULE 16—AMENDMENTS TO THE RULES
The Committee may, by majority vote, recommend to
the Board of Commissioners amendments to these
Rules and the Board may amend these Rules at any
time.

Exhibit C
Michigan Supreme Court
Administrative Order No. 2004-01
Order
Entered: February 3, 2004
ADM File No. 2003-15
Administrative Order No. 2004-01 State Bar of Michigan Activities

On order of the Court, notice of the proposed
changes and an opportunity for comment in writing
and at a public hearing having been provided, and consideration having been given to the comments received,
Administrative Order 2004-01 is adopted, effective immediately. Administrative Order 1993-5 is rescinded,
effective immediately.

App. 104
I.

Ideological Activities Generally.

The State Bar of Michigan shall not, except as provided in this order, use the dues of its members to fund
the activities of an ideological nature that are not reasonably related to:
(A) the regulation and discipline of attorneys;
(B) the improvement of the functioning of the
courts;
(C) the availability of legal services to society;
(D) the regulation of attorney trust accounts; and
(E) the regulation of the legal profession, including the education, the ethics, the competency,
and the integrity of the profession.
The State Bar of Michigan shall permanently post
on its website, and annually publish in the Michigan
Bar Journal, a notice advising members of these limitations on the use of dues and the State Bar budget.
II.

Activities Intended to Influence Legislation.
(A) The State Bar of Michigan may use the mandatory dues of all members to review and analyze pending legislation.
(B) The State Bar of Michigan may use the mandatory dues of all members to provide contentneutral technical assistance to legislators,
provided that;
(1) a legislator requests the assistance;

App. 105
(2) the executive director, in consultation
with the president of the State Bar of
Michigan, approves the request in a letter
to the legislator stating that providing
technical assistance does not imply either
support for or opposition to the legislation; and
(3) the executive director of the State Bar of
Michigan annually prepares and publishes in the Michigan Bar Journal a report summarizing all technical assistance
provided during the preceding year.
(C) No other activities intended to influence legislation may be funded with members’ mandatory dues, unless the legislation in question
is limited to matters within the scope of the
ideological-activities requirements in Section
I.
(D) Neither the State Bar of Michigan nor any
person acting as its representative shall take
any action to support or oppose legislation
unless the position has been approved by a
two-thirds vote of the Board of Commissioners or Representative Assembly taken after
all members were advised, by notice posted on
the State Bar website at least 2 weeks prior to
the Board or Assembly meeting, that the proposed legislation might be discussed at the
meeting. The posted notice shall include a
brief summary of the legislation, a link to the
text and status of the pending legislation on
the Michigan Legislature website, and a
statement that members may express their

App. 106
opinion to the State Bar of Michigan at the
meeting, electronically, or by written or telephonic communication. The webpage on which
the notice is posted shall provide an opportunity for members to respond electronically,
and the comments of members who wish to
have their comments made public shall be accessible on the same webpage.
(E) The results of all Board and Assembly votes
on proposals to support or oppose legislation
shall be posted on the State Bar website as
soon as possible after the vote, and published
in the next Michigan Bar Journal. When either body adopts a position on proposed legislation by a less-than-unanimous vote, a roll
call vote shall be taken, and each commissioner’s or assembly-person’s vote shall be included in the published notice.
(F) Those sections of the State Bar of Michigan
that are funded by the voluntary dues of their
members are not subject to this order, and
may engage in ideological activities on their
own behalf. Whenever a section engages in
ideological activities, it must include on the
first page of each submission, before the text
begins and in print larger than the statement’s text, a disclosure indicating
(1) that the section is not the State Bar of
Michigan but rather a section whose
membership is voluntary,
(2) that the position expressed is that of the
section only, and that the State Bar has
no position on the matter, or, if the State

App. 107
Bar has a position on the matter, what
that position is,
(3) the total membership of the section,
(4) the process used by the section to take an
ideological position,
(5) the number of members in the decisionmaking body, and
(6) the number who voted in favor and opposed to the position.
If an ideological communication is made orally, the
same information must be effectively communicated to the audience receiving the communication.
Although the bylaws of the State Bar of Michigan
may not generally prohibit sections from engaging
ideological activity, for a violation of this Administrative Order or the State Bar of Michigan’s bylaws, the State Bar of Michigan may revoke the
authority of a section to engage in ideological activities, or to use State Bar facilities or personnel
in any fashion, by a majority vote of the Board of
Commissioners. If the Board determines a violation occurred, the section shall, at a minimum,
withdraw its submission and communicate the
withdrawal in the same manner as the original
communication occurred to the extent possible.
The communication shall be at the section’s own
cost and shall acknowledge that the position was
unauthorized.

App. 108
III.

Challenges Regarding State Bar Activities.
(A) A member who claims that the State Bar of
Michigan is funding ideological activity in violation of this order may file a challenge by
giving written notice, by e-mail or regular
mail, to the executive director.
(1) A challenge involving legislative advocacy must be filed with the State Bar by
e-mail or regular mail within 60 days of
the posting of notice of adoption of the
challenged position on the State Bar of
Michigan website; a challenge sent by
regular mail must be postmarked on or
before the last day of the month following
the month in which notice of adoption of
that legislative position is published in
the Michigan Bar Journal pursuant to
section II(E).
(2) A challenge involving ideological activity
appearing in the annual budget of the
State Bar of Michigan must be postmarked or e-mailed on or before October
20 following the publication of the budget
funding the challenged activity.
(3) A challenge involving any other ideological activity must be postmarked or emailed on or before the last day of the
month following the month in which disclosure of that ideological activity is published in the Michigan Bar Journal.
Failure to challenge within the time allotted shall
constitute a waiver.

App. 109
(B) After a written challenge has been received,
the executive director shall place the item on
the agenda of the next meeting of the Board
of Commissioners, and shall make a report
and recommendation to the Board concerning
disposition of the challenge. In considering
the challenge, the Board shall direct the executive director to take one or more of the following actions:
(1) dismiss the challenge, with explanation;
(2) discontinue the challenged activity;
(3) revoke the challenged position, and publicize the revocation in the same manner
and to the same extent as the position
was communicated;
(4) arrange for reimbursement to the challenger of a pro rata share of the cost of the
challenged activity; and
(5) arrange for reimbursement of all members requesting a pro rata share of the
cost of the challenged activity in the next
dues billing.
(C) A challenger or the State Bar of Michigan may
seek review by this Court as to whether the
challenged activity violates the limitations on
State Bar ideological activities set forth in
this order, and as to the appropriate remedy
for a violation.
(D) A summary of the challenges filed under this
section during a legislative term and their

App. 110
disposition shall be posted on the State Bar’s
website.
IV.

Other State Bar Activities.
The State Bar of Michigan shall.
(A) annually publish in the Michigan Bar Journal
a notice informing members that, upon request, their names will be removed from the
mailing list that is used for commercial mailings, and
(B) annually publish in the Michigan Bar Journal
a notice informing members of the Young
Lawyers Section that, upon request, their
membership in that section will be terminated.

App. 111
Exhibit D
Summary of the Positions Taken by the
State Bar of Michigan on Legislation Proposed
During the 2017–18 and 2019–20 Sessions of the
Michigan Legislature through January 31, 2020

App. 112
Summary of State Bar of Michigan Positions on Legislation
During the 2017-18 and 2019-20 Legislative Sessions
Session Identifier

Description

Position

2019-20

HB4296 Bill to extend the e-filing fee sunset to 2/28/31.

Support to ensure that e-filing adequately funded.

2019-20

HB4378 Bill to create a FOIA exemption for any information that
would reveal the identity of a party who proceeds
anonymously in a civil action in which that party alleges
that he or she was the victim of sexual misconduct.

Support with an amendment that the exemptions
set forth in the bill also apply to survivors of
human trafficking.

2019-20

HB4407 Bill to amend the Revised Judicature Act to allow a district
court magistrate to hear and preside over civil infractions
pertaining to marijuana.

Support.

2019-20

HB4488 Bill to amend the definition of “good moral character” as it
relates to occupational and professional licenses and to
establish when a licensing board may consider a criminal
conviction, a civil judgment, or a certificate of employability.

Support amending so that the bill does not apply
to attorney licensing.

2019-20

HB4489 Bill to amend the Revised Judicature Act to clarify that, for
purposes of attorney licensing, the Board of Law Examiners
makes the determination of “good moral character."

Support.

2019-20

HB4509 Bill to amend the Revised Judicature Act to permit
nonattorneys to represent limited liability companies
in certain summary eviction proceedings.

Oppose.

2019-20

HB4535 Bill to provide for defense attorney access to the Law
Enforcement Information Network.

Support the concept of defense attorneys having
access to LEIN information; oppose the bill as drafted.

2019-20

HB4696 Bill to eliminate the age cap for judicial candidates.

Support.

2019-20

HB5117 Bill to amend the Revised Judicature Act to eliminate
certain requirements and periods of limitations that
otherwise would apply to claims under the Wrongful
Imprisonment Compensation Act.

Support (based on Board of Commissioners vote on
SB 0895 and SB 0896 of 2018 held on April 20, 2018).

2019-20

HB5118 Bill to amend the Wrongful Imprisonment Compensation
Act to extend the deadline to file claims for those who were
released before the Act’s effective date to 18 months from
the amendment’s effective date.

Support (based on Board of Commissioners vote on
SB 0895 and SB 0896 of 2018 held on April 20, 2018).

App. 113
Session Identifier
2019-20

2019-20

Description

HB5169 Bill to amend the Revised Judicature Act to require the
plaintiff in a malpractice action against certain licensed
professionals to file an affidavit of merit from a licensed
professional in the same field certifying that the claim has
merit upon demand by the defendant.
HJRO

Joint resolution proposing to amend Article VI, § 19 of the
Constitution of 1963 to eliminate the age cap for judicial
candidates.

Position
Oppose.

Support.

2019-20

SB0020 Bill to amend the Michigan Penal Code to specify permissible Support.
venues for prosecutions for delivery of a controlled substance
causing death.

2019-20

SB0021 Bill to amend the Code of Criminal Procedure to specify
permissible venues for prosecutions for delivery of a
controlled substance causing death.

Support.

2019-20

SB0068 Bill to amend the Revised Judicature Act to eliminate certain
requirements and periods of limitations that otherwise
would apply to claims under the Wrongful Imprisonment
Compensation Act.

Support (based on Board of Commissioners vote on
SB 0895 and SB 0896 of 2018 held on April 20, 2018).

2019-20

SB0069 Bill to amend the Wrongful Imprisonment Compensation
Act to extend the deadline to file claims for those who were
released before the Act’s effective date to 18 months from
the amendment’s effective date.

Support (based on Board of Commissioners vote on
SB 0895 and SB 0896 of 2018 held on April 20, 2018).

2019-20

SB0076 Bill to amend the Revised Judicature Act to:
• specify that assistance provided by an application
assistant or victim advocate under the proposed
Address Confidentiality Program Act would not
constitute the unauthorized practice of law, and
• allow a participant in the Address Confidentiality
Program to claim an exemption from jury service for
the period during which he or she was a Program
participant.

Oppose because it creates an additional
exemption to jury service; courts already have the
ability to excuse these individuals from jury
service.

App. 114
Session Identifier

Description

Position

2019-20

SB0142 Appropriations bill for the judiciary for the fiscal year ending Support the FY 2019-2020 Judiciary Budget as
9/30/20.
contained in SB 142 S-1 and the Executive Budget
Recommendation.

2019-20

SB0143 Appropriations bill for the Department of Licensing and
Regulatory Affairs for the fiscal year ending 9/30/20.

2019-20

SB0231 Bill to amend the Revised Judicature Act’s provision on service Support.
of process by individuals other than a sheriff, deputy sheriff,
medical examiner, court officer, or constable to require that
such individuals file a verified statement of the facts of service.

2017-18

HB4209 Bill to amend the Revised Judicature Act to authorize an
increase in minimum juror compensation.

2017-18

HB4210 Bill to amend the Revised Judicature Act to provide that
Support to increase juror compensation.
courts be reimbursed for juror compensation by reference to a
statutory rate rather than the rate set in 2003.

2017-18

HB4433 Bill to amend the conditions under which a party’s criminal
conviction may be expunged and the procedure for doing so.

Support with amendments to address the
following issues: 1) clarify which offenses qualify for
the summary procedure on an application to set
aside an adjudication; 2) provide an opportunity
for victims of the offense at issue to request a
hearing on the application; 3) expand the list of
crimes that are disqualified from the bill’s summary
procedure to include crimes committed in the
context of dating violence, sexual abuse, and
family violence; and 4) exempt victims of the
offense at issue from any misdemeanor penalty for
disclosing information about the offense after the
adjudication has been set aside.

2017-18

HB4463 Bill to revise the Revised Judicature Act to permit
nonattorneys to represent limited liability companies
in certain summary eviction proceedings.

Oppose.

Support the FY 2019-2020 Budget for the
Michigan Indigent Defense Commission as
contained in SB 143 S-1 and the Executive
Budget Recommendation.

Support to increase juror compensation.

App. 115
Session Identifier

Description

Position

2017-18

HB4612 Bill to amend the Code of Criminal Procedure to extend the
Support.
authority of courts to impose costs related to the actual costs
incurred by trial courts for court operations.

2017-18

HB4613 Bill to create a Trial Court Funding Commission to review
and recommend changes to the trial court funding system in
light of a recent court decision.

Support.

2017-18

HB4666 Bill to amend the Revised Judicature Act’s provisions on
service to require a certificate of service to be signed under
penalties of perjury.

Oppose as introduced; neutral on the 11-3
substitute version.

2017-18

HB4754 Bill to amend the Revised Judicature Act to authorize plans Support with an amendment addressing the
of concurrent jurisdiction between or among judicial circuits. training needs for specialty courts.

2017-18

HB5073 Bill to amend the Revised Judicature Act to provide for the
mediation of certain nondomestic relations disputes in
state courts and related rules.

Oppose because the subject matter of the bill is
more appropriately addressed in court rules.

2017-18

HB5244 Bill to amend the Mental Health Code to allow
a facility that performs an examination to determine
competency to stand trial to seek one extension of time to
complete its report upon a showing of good cause.

Oppose. Although the State Bar supports the
goals of improving the speed and accuracy of
competency evaluations, these bills would not
improve the current system, due to lack of
deadlines, funding, and standards.

2017-18

HB5246 Bill to amend the Mental Health Code to modify the rules
regarding examinations to determine competency to stand
trial.

Oppose. Although the State Bar supports the
goals of improving the speed and accuracy of
competency evaluations, these bills would not
improve the current system, due to lack of
deadlines, funding, and standards.

2017-18

HB5806 Bill to amend the Revised Judicature Act to allow the family
division of a circuit court to adopt or institute a juvenile
mental health court and related rules.

Support.

2017-18

HB5807 Bill to amend the Revised Judicature Act’s provisions
regarding mental health courts to eliminate references to
juveniles and juvenile mental health courts.

Support.

App. 116
Session Identifier

Description

Position

2017-18

HB5808 Bill to amend the Probate Code to allow the family division of
a circuit court to make orders affecting adults that the court
deems necessary for the physical, mental, or moral well-being
of a particular juvenile or juveniles under its jurisdiction.

Support.

2017-18

HB5820 Bill to amend the Mental Health Code to provide for courtordered outpatient treatment.

Support.

2017-18

HB5985 Bill to amend the Michigan Indigent Defense Act to modify
the funding, operations, and standards of the Michigan
Indigent Defense Commission.

Support HB 5985 as long as the following four
issues are addressed:
• The Michigan Indigent Defense Commission
(MIDC) should promulgate uniform
standards to determine partial indigency as
defined in the act.
• The MIDC should exist as an independent
entity that is allowed to hire its executive
director and other personnel.
• Funds collected from partially indigent
defendants should be used to support the
indigent defense system in a manner approved
by the MIDC or to offset the state share.
• The MIDC should have the authority to
determine how best to allocate the partial
funding to preserve the integrity of the
system in the most impactful manner

2017-18

HB6110 Bill to amend the definition of “good moral character” for
occupational and professional licensing purposes, to bar
the use of civil judgments in making

Amend the bill to not apply to the licensing of
attorneys.

such determination, and to specify the circumstances under
which a criminal conviction may be used in making such
determination.
2017-18

HB6277 Bill to amend the Code of Criminal Procedure to require courts Oppose.
to inform juries that they may choose not to convict even if
the prosecution has proved its case beyond a reasonable doubt.

App. 117
Session Identifier
2017-18

HJRG

Description
Joint resolution proposing to amend Article VI, § 19 of the
Constitution of 1963 to eliminate the age cap for judicial
candidates.

Position
Support.

2017-18

SB0385 Bill to amend the collection agency licensing statute to allow
collection agencies to hire in-house counsel to represent a
third-party creditor in debt- collection litigation.

Oppose as introduced; support the S-1 substitute as
passed the Senate because it addressed concerns
with the unlicensed practice of law.

2017-18

SB0435 Bill to require drug-treatment and DWI/sobriety courts and
their associated circuit and district courts to be certified by
the State Court Administrative Office or lose funding and
the ability to perform certain functions.

Support.

2017-18

SB0436 Bill to amend the Michigan Vehicle Code’s definition of
DWI/sobriety court to specify that it includes only a
DWI/sobriety court that has been certified by the State
Court Administrative Office.

Support.

2017-18

SB0437 Bill to require mental health courts and their associated
circuit and district courts to be certified by the State Court
Administrative Office or lose funding and the ability to
perform certain functions.

Support.

2017-18

SB0438 Bill to require veterans treatment courts and their associated Support.
circuit and district courts to be certified by the State Court
Administrative Office or lose funding and the ability to perform
certain functions.

2017-18

SB0895 Bill to amend the Revised Judicature Act to exclude claims
under the Wrongful Imprisonment Compensation Act from
certain time limits applicable in the Court of Claims.

2017-18

SB0896 Bill to specify that a person convicted, imprisoned, and released Support.
from custody before March 29,2017, would have to commence
an action under the Wrongful Imprisonment Compensation
Act within 18 months after the bill’s effective date.

2017-18

SB0951 Bill to amend the Code of Criminal Procedure to permit the
prosecution of delivery of a controlled substance causing
death in certain venues.

Support.

Support.

App. 118
Session Identifier

Description

Position

2017-18

SB0952 Bill to amend the Michigan Penal Code to specify permissible Support.
venues for prosecution of delivery of a controlled substance
causing death.

2017-18

SB1087 Bill to require insurers paying claims to an attorney to send
notice of payment to the claimant or judgment creditor.

2017-18

SB1092 Bill to amend the Revised Judicature Act to require courts to Oppose.
postpone the service of jurors who are farmers and called
between April 1 and November 30.

2017-18

SB1103 Bill to amend the Revised Judicature Act’s procedures for
small claims courts.

Support.

2017-18

SB1182 Bill to amend the Revised Judicature Act to provide for
attorney fee awards to prevailing parties.

Oppose.

2017-18

SB1183 Bill to amend the Revised Judicature Act to provide for
attorney fee awards on appeal if the court determines that
the appeal was vexatious.

Oppose.

2017-18

SJRF

Joint resolution proposing to amend Article VI, § 19 of the
Constitution of 1963 to eliminate the age cap for judicial
candidates.

Support.

Support.

App. 119
Number of lawyers, by integrated and
voluntary bars, in each state per the
ABA National Lawyer Population Survey
Integrated bar states
Alabama
Alaska
Arizona
Florida
Georgia
Hawaii
Idaho
Kentucky
Louisiana
Michigan
Mississippi
Missouri
Montana
Nebraska
New Mexico
North Carolina
North Dakota
Oklahoma
Oregon
Rhode Island
South Carolina
South Dakota
Texas
Utah
Virginia

2021

2020

2019

14,897
2,340
15,688
77,223
33,158
4,184
4,029
13,570
21,414
35,453
6,845
24,369
3,183
5,546
5,612
24,253
1,696
13,713
12,158
4,071
10,853
1,985
93,821
8,581
24,020

14,897
2,324
15,081
79,328
32,584
4,270
3,967
13,570
20,568
35,453
6,866
24,369
3,167
5,546
5,612
24,253
1,697
13,549
12,196
4,071
10,798
1,907
92,833
8,473
24,230

14,821
2,324
15,081
78,448
32,409
4,270
3,911
13,570
20,568
35,453
6,886
24,369
3,184
5,555
5,612
24,253
1,687
11,678
12,274
4,071
10,568
1,995
91,244
8,362
24,230

App. 120
Washington
West Virginia
Wisconsin
Wyoming
Total lawyers in
integrated Bar States
Total Lawyers
Percentage in
Integrated Bars
Voluntary bar states
Arkansas
California
Colorado
Connecticut
Delaware
Illinois
Indiana
Iowa
Kansas
Maine
Maryland
Massachusetts
Minnesota
Nevada
New Jersey
New York
Ohio
Pennsylvania

26,701
4,770
15,488
1,692

26,316
4,770
15,482
1,773

26,182
4,770
15,512
1,773

511,313

509,950

505,060

1,281,199 1,282,263 1,277,108
39.9%

39.8%

39.5%

2021

2020

2019

6,808
167,709
22,802
21,036
3,058
62,720
15,802
7,452
7,932
3,995
40,800
42,720
26,065
7,482
40,137
185,076
38,189
49,087

6,299
168,569
22,802
21,036
3,058
62,720
15,761
7,306
8,045
3,995
40,800
42,908
25,823
7,509
41,152
184,662
38,189
49,249

6,693
170,117
22,802
21,036
3,058
62,720
15,845
7,306
8,045
3,995
40,800
42,788
25,823
7,030
41,152
182,296
38,189
50,039

App. 121
Tennessee
Vermont
Total lawyers in
voluntary bar states
Total Lawyers
Percentage in
voluntary bars

18,818
2,198

18,818
3,612

18,702
3,612

769,886

772,313

772,048

1,281,199 1,282,263 1,277,108
60.1%

60.2%

60.5%

